                                                                 UNCLASSIFIED


                                                United States Department of State

                                             and the Broadcasting Board of Governors

                                                    Office of Inspector General

Office of Inspector General
	

                                                         Office of Audits



                                           Evaluation of Department of State

                                            Information Security Program


                                            Report Number AUD/IT-12-14, November 2011




                                                                 Important Notice

                                This report is intended solely for the official use of the Department of State or the
                                Broadcasting Board of Governors, or any agency or organization receiving a copy
                                directly from the Office of Inspector General. No secondary distribution may be
                                made, in whole or in part, outside the Department of State or the Broadcasting Board
                                of Governors, by them or by other agencies of organizations, without prior
                                authorization by the Inspector General. Public availability of the document will be
                                determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                                disclosure of this report may result in criminal, civil, or administrative penalties.



                                                                UNCLASSIFIED

                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office of Inspector General

                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one ofa series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

         In accordance with the Federal Information Security Management Act of2002 (FISMA),
OIG performed a review of the Department of State Information Security Program for FY 2011 .
To perform this review, OIG contracted with the independent public accountant Williams, Adley
& Company, LLP. The contract required that the independent public accountant perform its
evaluation in accordance with guidance contained in the Government Auditing Standards, issued
by the Comptroller General of the United States. The public accountant's report is included.
The report is based on interviews with employees and officials of relevant agencies and
institutions, direct observation, and a review of applicable documents.

       The independent public accountant identified areas in which improvements could be
made, including the risk management program, security configuration management, security
awareness and role-based training, plans of actions and milestones, account and identity
management, user provisioning process, continuous monitoring, continuity of operations
program, information systems contingency planning, oversight of contractor systems, and capital
planning.

        OIG evaluated the nature, extent, and timing of Williams, Adley & Company's work;
monitored progress throughout the evaluation; reviewed Williams, Adley & Company's
supporting documentation; evaluated key judgments; and performed other procedures as
appropriate. OIG concurs with Williams, Adley & Company's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. ~IG ' s analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                   /f£:K,~ 

                                       Harold W. Geisel 

                                       Deputy Inspector General 

                                            UNCLASSIFIED





~,
l !       j.'
      ';.11 WILLIAMS
                  ADLEY

                   Evaluation of Department of State Information Security Program


 November 7,2011


 Office of Inspector General
 U.S . Department of State
 2201 CSt., NW
 Washington, D.C. 20520


 Williams, Adley & Company, LLP (referred to as "we" in this letter), is pleased to provide the
 Office of Inspector General (OIG) the results of the evaluation of the Department of State
 (Department) Information Security Program for FY 2011. We evaluated the Department's
 Information Security Program performance in compliance with the Federal Information Security
 Management Act, Office of Management and Budget (OMB), and National Institute of Standards
 and Technology regulations, standards, and requirements. Additionally, the evaluation was
 performed to provide sufficient support for OIG in providing responses to OMB in accordance
 with OMB Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information
 Security Management Act and Agency Privacy Management, dated September 14, 2011.

 This evaluation, performed under Contract No. SAQMMAIOF2159, was designed to meet the
 objectives identified in Appendix A, "Objectives, Scope, and Methodology," of the report. We
 communicated the results of our review and the related findings and recommendations to the
 Department's management.

 We appreciate the cooperation provided by Department personnel during the evaluation. Should
    have             .    or if we can be of further assistance, please contact either _
(b) (6)




                                    WILLIAMS, ADLEY & COMPANY-DC , LLP
                             Certified Public Accountants / Management Consultants
          1030 1Slh Street, NW, Suite 300W • Washington , DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                              www.wllllamsadley.com




                                            UNCLASSIFIED

                                   UNCLASSIFIED



Acronyms
AD             Active Directory 

ATO            Authority to Operate
	
BEAP           Bureau Emergency Action Plan 

BIA            Business Impact Assessment
	
BIMC           Beltsville Information Management Center 

CCP            COOP Communications Plan 

CIO            Chief Information Officer 

CM             Configuration Management 

CMS            Content Management System 

CNSS           Committee on National Security Systems 

COCO           Contractor Owned Contractor Operated
	
COOP           Continuity of Operations Plan 

CP             Contingency Plan 

CPIC           Capital Planning and Investment Control 

CPM            Central Patch Management 

CVE		          Common Vulnerability Exposure
Department 	   U.S. Department of State
DHS 	          Department of Homeland Security
DS 	           Bureau of Diplomatic Security
DS/EV 	        Diplomatic Security/Enterprise Vulnerability
DS/SI/CS 	     Diplomatic Security/Security Infrastructure/Office of Computer Security
ENM 	          IRM/Enterprise Network Management
ESOC 	         Enterprise Service Operation Center
FAM 	          Foreign Affairs Manual
FCD 	          Federal Continuity Directive
FIPS 	         Federal Information Processing Standards
FISMA 	        Federal Information Security Management Act
FTE 	          full time equivalent
GAO 	          Government Accountability Office
GSS 	          General Support System
IA 	           Information Assurance
IBWC		         International Boundary and Water Commission
IRM/ENM 	      Bureau of Information Resource Management, Enterprise Network 

               Management 

IRM/IA		       Bureau of Information Resource Management, Office of Information 

               Assurance 

ISCP 	         Information System Contingency Plan
ISP 	          Internet Service Provider
ISSC 	         Information Security Steering Committee
ISSO 	         Information System Security Officer


                                   UNCLASSIFIED

                              UNCLASSIFIED

IT        information technology
ITAB      Information Technology Asset Baseline
ITSP      Information Technology Strategic Plan
MSDC      Main State Data Center
NIST      National Institute of Standards and Technology
OEM       Office of Emergency Management
OIG       Office of Inspector General
OMB       Office of Management and Budget
ONE       OpenNet Everywhere
PB        Program Board
PIA       Privacy Impact Assessment
PMEF      Primary Mission Essential Functions
POA&M     Plans of Action and Milestones
RBAC      Role Based Access Controls
RMF       Risk Management Framework
SARs      Security Assessment Reports
SMART     State Messaging and Archive Retrieval Toolset
SP        Special Publication
SSO       System Security Officer
SSP       System Security Plan
SSR       Significant Security Responsibilities
TDS       DOS Telegram Delivery
UPI       Unique Project Identifier
USEVI     United States Embassy Vienna Internet
WEBPASS   Web Post Administrative Software Suite
WINAD     OpenNet Windows Active Directory




                              UNCLASSIFIED

                                                 UNCLASSIFIED



                                              Table of Contents


EXECUTIVE SUMMARY ..............................................................................................1
 
BACKGROUND ............................................................................................................6
 
RESULTS OF REVIEW .................................................................................................7
 
A.	          RISK MANAGEMENT FRAMEWORK NEEDS IMPROVEMENT .....................7
 
B.	          SECURITY CONFIGURATION MANAGEMENT NEEDS IMPROVEMENT .....11
 
C.	          INFORMATION SECURITY TRAINING REQUIREMENTS WERE NOT 

             ENFORCED ................................................................................................13
 
D.	          PLANS OF ACTION AND MILESTONES ARE NOT EFFECTIVE ..................15
 
E.	          ACCOUNT MANAGEMENT PROCESSES IN ACTIVE DIRECTORY NEED TO 

             BE IMPROVED ...........................................................................................17
 
F.	          THE USER PROVISIONING PROCESS FOR CREATING, MODIFYING, AND 

             DISABLING USERS’ ACCOUNTS REQUIRES SIGNIFICANT 

             IMPROVEMENT .........................................................................................19
 
G.	          CONTINUOUS MONITORING PROGRAM NEEDS TO BE IMPROVED .........21
 
H.	          THE CONTINUITY OF OPERATIONS PROGRAM 

             NEEDS TO BE IMPROVED..........................................................................24
 
I.	          INFORMATION SYSTEM CONTINGENCY PLANS 

             NEEDS TO BE IMPROVED .........................................................................26
 
J.	          OVERSIGHT OF CONTRACTOR SYSTEMS AND EXTENSIONS NEEDS 

             IMPROVEMENT .........................................................................................29
 
K.           CAPITAL PLANNING REQUIRES IMPROVEMENT .....................................31
 
LIST OF CURRENT YEAR RECOMMENDATIONS ......................................................36
 
APPENDIX A. OBJECTIVES, SCOPE, AND METHODOLOGY .....................................41
 
APPENDIX B. FOLLOWUP OF RECOMMENDATIONS FROM THE FY 2010 FISMA

       REPORT.....................................................................................................44
 
APPENDIX C. SYSTEMS WITH INVALID AUTHORITY TO OPERATE ......................47
 
APPENDIX D. SYSTEMS WITH OUTDATED SECURITY BASELINE CONTROLS .......48
 
APPENDIX E. VULNERABILITY ASSESSMENT .........................................................50
 


                                                 UNCLASSIFIED

                                             UNCLASSIFIED



APPENDIX F. SYSTEMS WITHOUT ANNUAL BACKUP PLAN TESTING ...................55
 
APPENDIX G. SERVERS WITHOUT CRITICAL PATCHES ........................................56
 
APPENDIX H. SUMMARY OF DEPARTMENT OF STATE’S CONTINUOUS 

       MONITORING CONTROLS COMPLIANCE WITH FEDERAL GUIDANCE....57
 
APPENDIX I. SAMPLE SELECTION OF INFORMATION SYSTEMS LISTED IN

       INFORMATION TECHNOLOGY ASSET BASELINE USED FOR FY2011

       EVALUATION ............................................................................................59
 
APPENDIX J. DEPARTMENT OF STATE RESPONSE ..................................................61
 




                                             UNCLASSIFIED

                                            UNCLASSIFIED


                                         Executive Summary

        In accordance with the Federal Information Security Management Act of 2002 (FISMA),1
the Office of Inspector General (OIG) contracted with Williams, Adley & Company, LLP
(referred to as “we” in this report), to perform an independent evaluation of the Department of
State (Department) information security program’s compliance with Federal laws, regulations,
and standards established by FISMA, the Office of Management and Budget (OMB), and the
National Institute of Standards and Technology (NIST). Additionally, the results are designed to
assist OIG in providing responses to OMB Memorandum M-11-33, FY 2011 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management, dated September 14, 2011.

       Overall, we found that the Department had implemented an information security program,
but we identified weaknesses that significantly impact the information security program
controls. If these control weaknesses are exploited, the Department could be exposed to
additional security breaches. Collectively, these control weaknesses represent a significant
deficiency, as defined by the Office of Management and Budget M-11-33, to enterprise-wide
security including the Department’s financial systems. The weakened security controls could
adversely affect the confidentiality, integrity, and availability of information and information
systems. A further compounding factor is that the Department had not taken corrective action to
remediate all of the control weaknesses identified in the FY2010 FISMA report. To improve the
information security program and to bring the program into compliance with FISMA, OMB, and
NIST requirements, the Department needs to address the following control weaknesses:

           A. Risk Management Program

               The Department’s risk management program for information security needs
               improvement at both the organization and the system levels. At the organizational
               level, the Department had not implemented an effective risk management strategy, and
               the Information Security Steering Committee (ISSC) did not meet during the fiscal
               year. At the system level, we noted several deficiencies in the Department’s
               documentation in the security assessment and authorization packages. More
               importantly, the security authorization process was not properly managed for nine of
               30 of the Department’s information systems, including extensions for security
               authorizations (formerly authority to operate [ATO]) on the Department’s primary
               general support systems (GSS) for classified and unclassified systems. These
               deficiencies weaken the Department’s risk management framework and its ability to
               assess, respond to, and monitor information security risk.

           B. Security Configuration Management

               Although the Chief Information Officer (CIO) is taking actions to address the prior
               year’s weaknesses with the configuration management controls, the configuration
               management process continues to experience deficiencies in installing critical security


1
    Public Law No. 107-347, title III.
                                                     1
                                            UNCLASSIFIED
                                                UNCLASSIFIED


            patches within required timeframes and enabling mandatory security settings from the
            Bureau of Diplomatic Security (DS) Configuration Guidelines.

         C. Security Awareness and Role-Based Training

            The Department needs to improve its process and procedures for general information
            security awareness and role-based training. The Department is not tracking and
            documenting Significant Security Responsibilities (SSR) training attendance. The
            evaluation found that nine of 30 employees and contractors hired during FY 2011 had
            not taken the PS800 training (general security awareness training) within 10 days after
            being hired. Additionally, five of 30 Department information system users had not
            taken the annual PS800 training.

         D. Plans of Action and Milestones

            The Department’s Plans of Actions and Milestones (POA&M) process had not been
            fully and effectively implemented, and the program is not compliant with FISMA and
            OMB requirements. The Department had not implemented a POA&M process to
            address and resolve security weaknesses identified on the ClassNet GSS. In addition,
            the evaluation found the Department had not implemented effective corrective actions
            to address the POA&M control weaknesses within the OpenNet GSS identified in the
            FY 2010 FISMA report on the Department’s information security program.

         E. Account and Identity Management Program

            The Department needs to improve account management processes in Active Directory2
            (AD) for OpenNet and ClassNet. From a population of approximately 128,000
            OpenNet Active Directory user accounts, we identified approximately 400 guest, test,
            and temporary accounts; 9,000 accounts that had not been used (never logged on); 400
            accounts with passwords set “not to expire”; and 300 Install Accounts.3 Then, from a
            population of approximately 36,000 ClassNet AD accounts, we identified
            approximately 200 guest, test, and temporary accounts; 4,000 accounts that had not
            been used (never logged on); 900 accounts with passwords set “not to expire”; and 200
            software installation accounts (Install Accounts).

         F. User Provisioning Process

            The Department’s user provisioning process for creating, modifying, and disabling
            users’ accounts is not in compliance with the Department’s Foreign Affairs Manual
            (FAM). The Department did not require two of 25 ClassNet Domain Administrators’
            accounts to have individual user accounts, which may result in Domain
            Administrators’ accounts being used for non-administrator functions and susceptible to
            cyber attacks. The Department had not removed in a timely manner 294 of 894

2
  Active Directory is a technology created by Microsoft that provides a variety of network services such as
	
identification and authentication, directory access, and other network services.

3
  Install accounts are those accounts created for Department of State personnel to install software within the different 

domains (for the bureaus and offices).
	
                                                            2
                                                UNCLASSIFIED
                                                UNCLASSIFIED

            accounts for separated Full Time Equivalent employee accounts, and 104 of those
            accounts had Department issued security tokens4 for remote access. Documentation
            (Password/Receipt Form) had not been received for all of 25 new user accounts
            created within the past fiscal year and documentation had not been received for all
            seven Network Administrators’ accounts created within the past fiscal year. The
            Department permitted one of 25 OpenNet Domain Administrators/Administrators’
            accounts to be used as a group account.

            These control weaknesses increase the potential that unauthorized activities can occur
            without timely detection, which adversely impacts confidentiality, integrity, and
            availability of the data on OpenNet and ClassNet.

         G. Continuous Monitoring

            The Department does not have an effective means of implementing continuous
            monitoring at the organization level or the system level, and the Department had not
            taken action to resolve the continuous monitoring control weaknesses identified in the
            FY 2010 FISMA report on the Department’s information security program. The ISSC
            had not developed a formal continuous monitoring strategy that addresses framing
            risk, assessing risk, responding to risk, and monitoring risk, all of which are required
            by NIST Special Publication (SP) 800-39, Managing Information Security Risk.

            Also, based on our review of the actions taken by the Department regarding
            weaknesses identified in the FY 2010 FISMA report on the Department’s information
            security program, we found the following repeat deficiencies:

                 	 The scanning tools do not assess Oracle, the Department’s most common
                    database management system, for configuration control weaknesses that could
                    adversely impact application access controls.

                 	 Scanning results for routers, firewalls, and Demilitarized Zone servers were not
                    available in iPost;5 therefore, the results were not used in risk scoring.

         H. The Continuity of Operations Program Needs to Be Improved

            The Department’s Continuity of Operations Program is not operating effectively and is
            not documented in accordance with NIST SP 800-34 and Federal Continuity Directive
            (FCD)-2. The Department is required by NIST to have a collection of plans to prepare
            for response, continuity, recovery, and resumption of mission/business processes and
            information systems.


4
  A token (sometimes called a security token) is an object that controls access to a digital asset. It is a small device
used in a networked environment to create a one-time password that the owner enters into a login screen along with
a user identification and a personal identification number.
5
  iPost is a system that provides the ability to monitor outputs of the various network monitoring applications. It
allows key personnel to monitor network, computer, and application resources; check for potential problems; initiate
corrective actions; and gather performance, compliance, and security data for near real-time and historical reporting.
                                                            3
                                                UNCLASSIFIED
                               UNCLASSIFIED


  We found that the Continuity of Operations Plan (COOP) Communication Plan (CCP)
  for emergency communications and the network had not been updated with significant
  changes since 2008. The COOP CCP was not updated in accordance with NIST SP
  800-34 because the Bureau of Information Resource Management (IRM) is focused on
  the Bureau Emergency Action Plan (BEAP) instead of the COOP CCP that contributes
  to the continuation of communications and the network for the entire Department.

I. Information Systems Contingency Planning

  The Department needs to improve the information system contingency planning
  program. An effective contingency planning program is designed to mitigate the risk
  of system and service unavailability by providing effective and efficient solutions to
  enhance system availability.

  From a sample of 25 information system contingency plans tested, we found several
  deficiencies. For example, three systems’ (OpenNet, WebPass, and TDS)
  Contingency Plans did not document the alternate recovery site information.

J. Oversight of Contractor Systems

  The Department had not implemented an effective oversight program of its contractor
  systems and contractor extensions. All five Contractor-Owned Contractor-Operated
  (COCO) systems reviewed did not have contract agreements or security-related
  documentation available for review. For four of five COCO systems, IRM did not
  provide ATO memorandums after several requests.

  We also found that the Department did not have an effective mechanism in place to
  identify the total number of contractors’ personnel who had access to and privileges
  within the Department’s network, applications, databases, and data.

K. Capital Planning

  Information security is not fully integrated into the Department’s Capital Planning and
  Investment Control (CPIC) process. IRM needs to strengthen its oversight process of
  information technology (IT) investments. For four of 10 appropriated IT security
  investments reviewed, the Department did not provide evidence of documentation
  showing obligations and expenditures. The Department does not provide OMB with
  all investments that have significant dependency for the IT Infrastructure major
  investment. For a sample of 10 non-major investments that make up the IT
  Infrastructure major investment, we found that none of the 10 were identified as
  required by OMB in Exhibit 300.

  Also, IT security costs from the Department’s POA&Ms are not captured in the capital
  planning process. Specifically, Department implementation of the POA&M process
  does not reflect the unique project identifiers (UPI), which tie security correction
  action plans into the CPIC process. The lack of integration between the POA&M
  process and capital planning process negatively affects the funding prioritization
                                        4
                               UNCLASSIFIED
                                        UNCLASSIFIED

          among the IT investments. Ultimately, inadequate oversight increases the risk of
          unapproved investments being funded.

       Although this report contains 19 recommendations to the Department, we believe the
most significant security deficiencies are the findings related to risk management strategy and
security authorizations (Finding A), security configuration management (Finding B), POA&Ms
(Finding D), and the continuous monitoring program (Finding G).

       We reviewed the Department’s remedial actions taken to address the 2010 reported
information security program control weaknesses identified in the FY 2010 FISMA report
Review of the Information Security Program at the Department of State (AUD/IT-11-07,
November 2010). (The statuses of the recommendations from the FY 2010 review of the
information security program are in Appendix B.) Since FY 2010, the Department has taken
actions to improve management controls to include the following:

       	 Updated and verified the FISMA systems inventory list to the Information
          Technology Asset Baseline (ITAB) to ensure that all information technology (IT)
          systems are accurately accounted for.

       	 Defined and identified personnel who have significant security responsibilities in its
          Information Assurance (IA) Training Plan.

       	 Ensured that personally identifiable information (PII) data incidents are reported to
          the U.S. Computer Emergency Response Team within the required 1-hour timeframe.

       	 Updated its contracts to include Department of State Acquisition Regulations
          information security language.

         Management Comments. In its November 2, 2011, response to the draft report (see
Appendix J), the Department stated that it “disagrees” on whether continuous monitoring, as
currently conducted, produces a lower risk than a traditional C&A program, and on the relative
importance of completeness and compliance vs. timeliness and risk-based prioritization.” The
Department further stated, “Having carefully considered these factors, the Department is
convinced its continuous monitoring program, which is 300 times more timely than traditional
three-year reauthorizations, produces significantly lower security risk [Department footnote
states: “Neither produce zero risk, and achieving zero risk in not foreseeable.”] on its networks.”

        Although OIG agrees that the continuous monitoring concept, if properly implemented
and documented, allows for more rapid identification of security weaknesses, OIG is unable to
provide an opinion on the effectiveness of the continuous monitoring strategy because the
Bureau of Information Resource Management (IRM) did not provide a strategy, but the concept
of continuous monitoring is designed to provide results in a more timely fashion. The collective
weaknesses in the information security program, including IRM’s lack of strategies for risk
management and continuous monitoring, leave a weakness in the approach to assessing risk and
taking actions to correct identified vulnerabilities. Furthermore, IRM’s approach cannot
establish responsibility and accountability for information systems security controls and leaves a
vacuum between the current state of information security controls and any planned
                                                 5
                                        UNCLASSIFIED
                                        UNCLASSIFIED


improvements regarding the protection of the Department’s information and information
systems, because the Department relies heavily on iPost results to determine the current security
posture of information systems and to initiate corrective actions. However, IRM could not
provide documentation to support the strategy used or present historical or trend analysis during
the annual evaluation. OIG identified weaknesses that should have been addressed or corrected
based on the approach IRM presented verbally during the course of the FISMA evaluation. The
identification of account management weaknesses by OIG’s FISMA and financial statement
auditors, the failure to install critical patches on servers, and the increasing trend of Common
Vulnerabilities and Exposures (CVE) since 2007 indicates that the approach in place is not
addressing information security risks in the Department’s information and information systems.

       In its response to the report’s 19 recommendations, the Department generally agreed or
agreed with portions of 10 recommendations, did not agree with five recommendations, and did
not indicate agreement or disagreement with four recommendations. Based on the response,
OIG considers 10 recommendations resolved, pending further action, and nine recommendations
unresolved.

       Management’s responses to the recommendations and OIG’s analyses of the responses
are presented after each recommendation. Also, OIG has provided additional comments to the
Department’s response in the section “Management Comments and OIG Analyses.”

                                         Background
        FISMA recognized the importance of information security to the economic and national
security interests of the United States. FISMA requires each Federal agency to develop,
document, and implement an agency-wide program to provide information security for the
information systems that support the operations and assets of the agency, including information
and information systems provided or managed by another agency, contractor, or source. FISMA
provides a comprehensive framework for establishing and ensuring the effectiveness of
management, operational, and technical controls over information technology (IT) that supports
Federal operations and assets, and it provides a mechanism for improved oversight of Federal
agency information security programs.

        FISMA assigns specific responsibilities to Federal agencies, NIST, OMB, and the
Department of Homeland Security (DHS) in order to strengthen information system security. In
particular, FISMA requires the head of each agency to implement policies and procedures to cost
effectively reduce IT security risks to an acceptable level. To ensure the adequacy and
effectiveness of information system controls, FISMA requires agency program officials, chief
information officers, chief information security officers, senior agency officials for privacy, and
inspectors general to conduct annual reviews of the agency’s information security program and
report the results to DHS.




                                                 6
                                        UNCLASSIFIED
                                              UNCLASSIFIED


       On an annual basis, OMB provides guidance with reporting categories and questions for
meeting the current year’s reporting requirements.6 OMB uses this data to assist in its oversight
responsibilities and to prepare its annual report to Congress on agency compliance with FISMA.

                                            Results of Review
       Overall, we found that the Department had implemented an information security program,
but we identified weaknesses that significantly impact the information security program
controls. If these control weaknesses are exploited, the Department could be exposed to
additional security breaches. Collectively, these control weaknesses represent a significant
deficiency, as defined by the Office of Management and Budget M-11-33, to enterprise-wide
security including the Department’s financial system. The weakened security controls could
adversely affect the confidentiality, integrity, and availability of information and information
systems. A further compounding factor is that the Department had not taken corrective action to
remediate all of the control weaknesses identified in the FY2010 FISMA report. To improve the
information security program and to bring the program into compliance with FISMA, OMB, and
NIST requirements, the Department needs to address the following control weaknesses:

A. Risk Management Framework Needs Improvement
        The Department needs to improve its risk management program for information security
at both the organization and the system levels. We found that the Department had not taken
adequate remedial actions to resolve control weaknesses reported in the FY 2010 OIG FISMA
report and that the Department continues to experience control deficiencies at both the
organizational and information systems levels of the Risk Management Framework (RMF). The
RMF is important because NIST SP 800-377 requires an organizational perspective with the
development of a comprehensive governance structure and organization-wide risk management
strategy, instead of sole reliance on security authorizations at the system level.

        At the organizational level, the Department had not implemented an effective risk
management strategy addressing how it intends to assess, respond to, and monitor information
security risk as required by NIST 800-39.8 As of June 30, 2011, the ISSC,9 a key component of
the Department’s cyber security governance structure, had not met during FY 2011. The
committee chose to meet only during emergency events and not regularly, as specified in its
charter. Key members of the ISSC consist of the Chief Information Security Officer, the Senior
Coordinator for Security Infrastructure; Co-Executive Secretaries from the Office Information
Resource Management/Information Assurance/Policy Liaison and Reporting (IRM/IA/PLR) and
6
  OMB Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management

Act and Agency Privacy Management, dated Sept.14, 2011.
	
7
  NIST SP 800-37, rev. 1, Guide for Applying the Risk Management Framework to Federal Information Systems, 

Feb. 2010. 

8
  NIST SP 800-39, Managing Information Security Risk: Organization, Mission, and Information System View, 

March 2011. 

9
  According to the ISSC charter, members will meet on a monthly basis; more or less frequent meetings may be 

scheduled at the request of any member, given a majority agreement of the ISSC. Among its responsibilities, the 

ISSC shall: (a) Develop priorities and determine availability of resources for security of Department information
	
systems; (b) coordinate strategic direction of the Department’s information security efforts; and (c) support 

Department funding and budget mechanisms as they relate to information security.
	
                                                          7
                                              UNCLASSIFIED
                                               UNCLASSIFIED


Diplomatic Security/Security Infrastructure/Office of Computer Security (DS/SI/CS), and
permanent bureau members. Further, because the risk management strategy had not been fully
implemented at the organizational level, communication of operations at the system level is
negatively affected, along with business decisions such as funding allocation, because
management is not fully aware of security vulnerabilities that exist.

       At the information system level, we found deficiencies in the Security Assessment and
Authorization documentation (formerly Certification & Accreditation) as follows:

       1.		 For the authorities to operate (ATO), which provide proof that an authorizing official has
            accepted the identified risk, we found that nine of 30 systems (see Appendix I) tested did
            not have a full security assessment and authorization performed. The most notable
            examples identified were that the designated approving authority provided only
            memorandums granting extensions of ATOs for OpenNet and ClassNet general support
            systems (GSS) rather than completing a full security assessment and authorization.
            Because the OpenNet system did not have a legitimate ATO for the unclassified systems,
            we requested the ClassNet ATO for the classified systems. OMB10 requires agencies to
            conduct ongoing authorizations of information systems through the implementation of
            continuous monitoring programs. However, we found control deficiencies in the
            Department’s continuous monitoring program (see Finding G - Continuous Monitoring
            Program Needs To Be Improved). The nine systems, in addition to ClassNet, where the
            ATOs were not valid, not available or outdated, are presented in Appendix C.

       2.		 For thirty System Security Plans (SSP) tested, which document the security controls for
            the system, we found the following:

           	 The security baseline controls for 24 systems had not been updated to 

              comply with NIST SP 800-53 Revision 3,11 (see Appendix D). 

           	 Four systems’ SSPs (OpenNet Transport, OpenNet Windows Active
              Directory [WINAD], Extranet, and the United States Embassy Vienna
              Internet [USEVI]) had not been updated within 3 years or updated because
              of a major change, as required by OMB Circular A-130 Appendix III and
              NIST SP 800-37.

       3.		 For thirty Security Assessment Reports (SAR) supporting the independent assessor’s
            evaluation of management, operational, and technical controls, we found the following:

           	 For five systems (OpenNet, Windows Active Directory [WINAD],
              Extranet, USEVI, and the Web Post Administrative Application Software
              Suite [WebPASS]), the SAR either was not available or was outdated.
           	 Two systems (WebPASS and State Messaging and Archiving Retrieval
              Tool – Classified [SMART-C]) did not have an annual assessment of
              security controls performed as part of their continuous monitoring of annual
              controls.

10
     OMB Memorandum M-11-33.
	
11
     NIST SP 800-53, rev.3, Recommended Security Controls for Information Systems, Aug. 2009. 

                                                       8
                                               UNCLASSIFIED
                                        UNCLASSIFIED


        The Department did not properly follow NIST SP 800-37 guidelines for properly
managing the documentation included in the security assessment and authorization packages.
Bureau of Information Resource Management, Office of Information Assurance (IRM/IA),
officials stated that they were aware that the contents were sometimes outdated or were
unavailable but explained that the USEVI Web site has a foreign IP address that does not belong
to the Department. The officials acknowledged, however, that OIG had informed them that
USEVI needs to be included in their system inventory.

       At the system level, not performing the security assessment and authorization for
OpenNet and ClassNet is a vulnerability that not only could eventually lead to a threat for these
systems but also for all other GSSs and major applications that are dependent on common
controls from ClassNet and OpenNet.

       Recommendation 1. We recommend that the Information Security Steering Committee
       (ISSC) meet on a monthly basis to fulfill its purpose and responsibilities as required in
       ISSC charter.

       Management Response: The Department did not agree with this recommendation,
       stating that the lack of meetings does not pose a material risk to Department security.
       The Department further stated: “Moreover, there is no requirement that this voluntarily
       created internal group [ISSC] meet with recurring frequency. The Department exercised
       its valid authority [OMB Memorandum 11-33] to conclude there was no need to meet . . .
       The ISSC chairpersons will survey the ISSC membership on reasons to meet, and
       conduct meetings accordingly.”

       OIG Analysis: OIG considers this recommendation unresolved. The Department’s
       ISSC charter states that the committee will meet on a monthly basis. Further, OIG is of
       the opinion that the ISSC should meet on a more frequent basis to mitigate organizational
       vulnerabilities, as the cyber threat environment to the Department is dynamic. This
       recommendation can be resolved when the Department agrees to have the ISCC meet
       monthly to fulfill its purpose and responsibilities, as required in the ISSC charter.

       Recommendation 2. We recommend that the Information Security Steering Committee
       improve its risk management strategy at the organizational level for assessing, responding
       to, and monitoring information security risk as required in the Foreign Affairs Manual
       and the National Institute of Standards and Technology Special Publication 800-39.

       Management Response: The Department stated that it “agree[d] that some increased
       level of documentation in this area could be beneficial” but noted that under OMB
       Memorandum M-11-33, “it is the Department’s judgment that shall decide how much
       documentation is needed to reduce risk.” The Department further stated that its
       “Designated Authorizing Authority . . . will determine the level of documentation
       adequate to manage risk.”

       OIG Analysis: OIG considers this recommendation resolved. The recommendation can
       be closed when OIG reviews and accepts documentation showing that the Department
       has implemented a risk management strategy at the organizational level showing how the
                                                9
                                        UNCLASSIFIED
                               UNCLASSIFIED


Department’s risk management strategy addresses how the Department will assess,
respond to, and monitor information security risk.

Recommendation 3. We recommend that the Chief Information Officer:
	 Improve oversight of the security assessment and authorization process for
   the Department’s information systems, especially the OpenNet General
   Support System (GSS) and ClassNet GSS as required by the National
   Institute of Standards and Technology (NIST) Special Publication (SP)
   800-37.
	 Improve existing procedures to ensure security authorization packages are
   updated every 3 years or when a significant change occurs or develop a
   risk-based approach for implementing a continuous monitoring strategy as
   required by NIST SP 800-37.
	 Improve existing procedures to ensure Systems Security Plans and Systems
   Assessment Reports are updated as required to comply with the security
   baseline controls contained in NIST SP 800-53 (Revision 3).
	 Perform annual security assessments of a subset of a system’s security
   controls as required by NIST SP 800-37.

Management Response: The Department did not agree with the recommendation,
stating that based on OMB Memorandum M-11-33, security reauthorizations are not
required every 3 years but through “ongoing authorizations” via implementation of a
continuous monitoring program. The Department also did not agree that security
assessments and authorizations had to be improved, stating that NIST SP 800-53
guidance “was not fully implemented until June 2010.” The Department also stated that a
“new NIST 800-53A was needed to implement the new 800-53, and was not published
until June 2010.” Therefore, according to the Department, “compliance was not required
for C&As starting before June 2011” but, as of June 2011, the Department “will comply
with the new version of NIST 800-53/53A.” The Department further stated that its C&A
Toolkit “has been fully updated to implement this change” and that it “performs such
annual testing on all its systems, except in rare cases that are vigorously pursued.”

OIG Analysis: OIG considers this recommendation unresolved. The evaluation of the
Department’s continuous monitoring program determined that several control
deficiencies were identified (see Appendix H), therefore weakening the reliance on the
continuous monitoring program. NIST SP 800-53, Revision 3, guidance was issued in
August 2009, and OMB Memorandum M-11-33 states that “agencies are expected to be
in compliance with NIST standards and guidelines within one year of the publication date
unless otherwise directed by OMB.” Although the Department stated that it had
performed annual security assessments on all of its controls, testing results showed that
the Department was not testing all of the security controls and could not support the
control baselines necessary to define the testing level. This recommendation can be
considered resolved when OIG reviews and accepts documentation showing that the
Department has agreed to address these risk management recommendations and the
actions it will take to address these actions.

                                       10
                               UNCLASSIFIED
                                            UNCLASSIFIED



B. Security Configuration Management Needs Improvement
         In FY 2011, we inquired about the progress of the Central Patch Management (CPM)
project and the Initiative for End-to-End Configuration Management (CM) identified in the FY
2010 FISMA report on the Department’s information security program. According to
IRM/Operations/Enterprise Network Management (IRM/OPS/ENM) officials, the CPM project
is in the deployment phase. Although the CIO is taking actions to address the prior year’s
weaknesses with the CM controls and IRM/OPS/ENM has set a patch installation benchmark
rate of 100 percent, which is in accordance with the FAM,12 we found the following deficiencies:

       	 Critical security patches were not installed within the required timeframes. From a
          sample of 25 Windows servers, we found that 17 servers did not have critical patches
          installed. (Details of missing critical patches are in Appendix G.)

       	   All mandatory security settings were not reported by iPost. The scan results are
            submitted to IRM/IA to upload to iPost. Based on our comparison of a sample of 25
            mandatory security settings from the DS Configuration Guidelines (Windows 2003 and
            2008) and the McAfee Foundstone Benchmarks, which are run by the Bureau of
            Diplomatic Security, Security Infrastructure Directorate, Office of Computer Security,
            Enterprise Vulnerability Scanning (DS/SI/CS/EV) Branch, we found that the following
            settings were not enabled during the vulnerability scans:

              o	 Security Options: Network Access: Restrict anonymous access to named pipes
                 and shares.

              o	 Securing System Services: DFS Replication.

              o	 Restricting Access to Windows Server 2003 System Folders.

              o	 Windows (2008) Update Services: PKI Interoperability.

       	 We performed a vulnerability analysis and identified 8,520 high risk deficiencies. Some
          of the deficiencies identified are as follows (the vulnerability analysis is in Appendix E):

              o	 Systems, operating systems, and applications with critical system and security
                 patches that had not been applied by the Department.

              o	 Systems that did not meet the standards set forth in the DS System Configuration
                 Policy and Procedures.

              o	 Systems that allowed access to system resources via anonymous logins and
                 passwords, default credentials, and unsecured access points.

       Responsibility for the implementation of CM controls for the systems, operating systems,
databases, and network is distributed among the various system owners, database administrators,
and network administrators without sufficient centralized governance controls to oversee

12
     5 FAM 1067.3(b)(1), “Patch Management Compliance Program.”
                                                     11
                                            UNCLASSIFIED
                                       UNCLASSIFIED


performance. For example, the Information System Security Officers (ISSO) have not
established and implemented a reporting process to verify that the responsible groups have
implemented the security configuration patches and software updates identified by DS and IRM.
Although system owners are responsible for the systems’ operations and compliance, DS and
IRM did not establish reporting procedures to obtain, between each other, assurance that patches
were actually installed. To correct these weaknesses, IRM/OPS/ENM is implementing the end-
to-end CM initiative, which includes a standard operating environment to support development
of effective CM plans for the computing environments commonly used throughout the
Department.

        Without effective configuration management controls, the Department increases the risks
that Department-sensitive data, systems, and hardware may be exposed to loss of integrity and
confidentiality. Additionally, the Department increases the risks that known security weaknesses
will be exploited by individuals to perform unauthorized activities. The Department’s
decentralized patch management and CM processes and procedures do not ensure that all system
and operating system security residing on the network will be properly patched to reduce the
security exposure to other Department bureaus and system owners in a timely manner.

       Recommendation 4. We recommend that the Chief Information Officer expedite the
       Information Resource Management, Operations, Enterprise Network Management and
       Diplomatic Security, Security Infrastructure, Office of Computer Security process to
       finalize and implement the elements within the Cyber Security Architecture draft target
       architecture and initiatives for end-to–end configuration management and take immediate
       action to correct or mitigate the high risk vulnerabilities identified by the vulnerability
       scanning as required by the Foreign Affairs Manual and Diplomatic Security System
       Configuration Policy and Procedures.

       Management Response: The Department stated the following:

          In general, the OIG is using a criterion focused upon completeness, and
          overlooking timeliness. This is a “compliance-based” approach not consistent
          with FY2011 FISMA reporting instructions that require both the Department
          and OIG to assess risk and make judgments of how to best achieve security.

          More specifically, the OIG asserts the Department is not checking 100% of
          configuration settings within the “required” three-year timeframe. Utilizing a
          risk-based approach, the Department is applying the analysis conducted by
          MIT Lincoln Labs examining the tradeoff between completeness and
          timeliness of testing. This study shows the following two conditions have
          approximately equal risk [Chart in Department response: “100% completeness
          every year =17% completeness every two months”].

          Because the Department checks nearly 90% of configuration settings every
          three days, the Department’s risk is significantly lower than the traditional
          C&A requirement (100% completeness every three years). In this case,
          evidence shows timeliness trumps completeness in lowering risk.

                                                12
                                       UNCLASSIFIED
                                                 UNCLASSIFIED

               The Department examined each of the three OIG findings and determined the
               findings do not reflect a material increase of risk for reasons documented
               elsewhere [Footnote in Department response: “Available for auditor
               inspection.”]. The Department will continue to assess risk in these areas, and
               if a material risk to the security of the Department is found, the Department
               will take appropriate steps.

           OIG Analysis: OIG considers this recommendation unresolved. During the analysis of
           vulnerability scan results analysis, the evaluation determined that a total of 15,288
           critical, high, medium, and low patches have not been applied for 16 general support
           systems/major applications. Further, there were critical patches that were 7 years
           overdue. For the 16 systems tested, the vulnerability scan results analyses displayed a
           rising trend of non-remediation of Common Vulnerabilities Exposures (CVE) since 2007,
           with some being identified as early as 1999. Thus there are vulnerabilities that have not
           been remediated and that can possibly threaten the security posture of the network
           infrastructure. (See Appendix E, “Vulnerability Assessments,” Table 4, “Total Number
           of Vulnerabilities by CVE and Year.”) This recommendation can be resolved, when the
           Department agrees to finalize and implement the elements within the Cyber Security
           Architecture draft target architecture and initiatives for end-to–end configuration
           management and take immediate action to correct or mitigate the high risk vulnerabilities
           identified by the vulnerability scanning.

C. Information Security Training Requirements Were Not Enforced

        The Department’s security training program needs to improve processes and procedures
within the general information security awareness and role-based training. OMB13 mandates
agencies provide periodic computer security awareness to all users as well as specialized training
for individuals who have significant security responsibilities. Training ensures that all users are
knowledgeable of the rules of the system. In the FY 2010 FISMA report, OIG reported that the
Department did not identify employees with significant security responsibilities (SSR).

         The FY 2011 evaluation found that the Department had established controls to identify
SSR positions and required role-based training in the IA Training Plan; however, the Department
is not tracking and documenting SSR training attendance. From a sample of 25 full-time-
equivalent (FTE) employees with SSRs, we found 20 employees had not completed role-based
training within the past 3 years.

           We also found the following control deficiencies:

       	 From a sample of 25 newly hired personnel (contractor, FTE, and locally employed
          staff), we identified nine users who had not completed the initial PS80014 training within
          10 days of gaining access to the system. The IA Training Plan requires first-time users to
          complete the course within 2 weeks of being granted access to the system.


13
     OMB Circular A-130, revised app. III, “Security of Federal Automated Information Resources.”
14
     The PS800 online user awareness training is required for all network users, domestic and abroad.
                                                           13
                                                 UNCLASSIFIED
                                        UNCLASSIFIED



   	 From a sample of 25 personnel (contractor, FTE employees, and locally employed staff),
      five users had not taken the annual PS800 refresher training.

        The control deficiencies with the new user and annual refresher PS800 training occurred
because the Department had not implemented new automated methods to suspend the
employees’ access to the networks for those employees who have not completed the PS800
training. Currently, the Department relies on ISSOs to set expiration dates on user accounts,
which are contingent on the completion of the PS800 training. As a result, all employees (users
and non-users) need to be properly trained on how to protect classified information. Employees
who are not properly trained create a risk for the Department because they may cause
vulnerabilities or security breaches.  

       Recommendation 5. We recommend that the Chief Information Officer and
       the Bureau of Diplomatic Security ensure, for significant security responsibility
       (SSR) training, that personnel designated as having SSR responsibilities receive
       the appropriate training as required by the Information Assurance Training
       Plan.

       Management’s Response: The Department stated that it “agrees with this
       recommendation” and that it “will develop a method of tracking of who needs and who
       has received role-based training; comparable to what is available for awareness training
       (including risk scoring in iPost).”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and accepts documentation showing that the Department
       has developed a method for tracking individuals who have received role-based training.

       Recommendation 6. We recommend that the Chief Information Officer implement, for
       Security Awareness Training, automated methods to replace the current manual process
       to track and enforce the Department of State security awareness policy and to suspend a
       user’s access to the network if the user has not taken the Cyber Security Awareness
       course within the required timeframe as required by the Information Assurance Training
       Plan.

       Management Response: The Department did not indicate concurrence or
       nonconcurrence with this recommendation. It stated that it will “conduct a complete
       assessment of compliance in this area and take appropriate action if a material level of
       non-compliance is indicated.”

       Regarding the Cyber Security Awareness course (PS-800), the Department stated that a
       preliminary study of compliance with annual completion of the course shows that “nearly
       100% of those who require training receive training within 30 days of the due date” and
       that it “does not consider this level of non-compliance to be a material risk to the security
       of the Department.” The Department further stated that this is “especially true,
       considering there are several other sources of awareness training including the daily
       awareness program at login, as well as weekly and quarterly sources.” Regarding OIG’s
       “proposal to automatically suspend account access (without human intervention),” the
                                                14
                                        UNCLASSIFIED
                                           UNCLASSIFIED


        Department stated that this proposal “has a high risk of creating serious denial-of-service
        issues and as such, itself poses risks to the security of the Department.”

        OIG Analysis: OIG considers this recommendation unresolved. The testing that was
        performed during the evaluation was a control-based test of the IA Training Plan, which
        states, “First time users must complete the course within 2 weeks of being granted access
        to the system. Thereafter, annual refresher training is required. Users should take the
        course within ten working days of the expiration of the course completion certificate
        received the previous year.” This recommendation can be resolved when the Department
        agrees to follow its internal procedures or change its procedures to train first-time users.

D. Plans of Action and Milestones Are Not Effective
        The Department’s Plans of Action and Milestones (POA&M) process is not fully and
effectively implemented, and the program is not compliant with FISMA and OMB requirements.
The POA&M is used to assist agencies in identifying, assessing, prioritizing, and monitoring the
progress of corrective actions for security weaknesses found in programs and systems.

        The Department had not implemented a POA&M process to address and resolve security
weaknesses identified on ClassNet GSS. For example, ClassNet security weaknesses identified
from contingency plan test results, recommendations from external auditors, and annual tests and
audits of security controls are not tracked in the enterprise POA&M database, as required by
OMB15 and the Committee on National Security Systems (CNSS).16 The Department did not
properly follow OMB and CNSS mandated guidance for the ClassNet GSS to address all
weaknesses identified by program reviews and evaluations. Not addressing security weakness
for national security systems is a vulnerability that threatens Department assets and the nation.

        In addition, we found that the Department had not implemented corrective actions to
address the POA&M control weaknesses within the OpenNet GSS identified in OIG’s FY 2010
FISMA report. Specifically, the Department’s POA&M process and program had the following
control deficiencies:

        	 It did not consistently record essential resources to remediate and resolve security
           weaknesses. According to OMB,17 POA&Ms should include the estimated funding
           resources required to resolve the weakness as well as the anticipated source of
           funding.

        	 It did not accurately and timely update remediation schedules to reflect actual system
           owners and others’ performance to resolve or mitigate control weaknesses. NIST SP




15
   OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security Management

Act. 

16
   CNSS Policy No. 22, “Information Assurance Risk Management Policy for National Security Systems.” (Feb. 

2009) 

17
   OMB Memorandum M-04-25. 

                                                     15
                                           UNCLASSIFIED
                                           UNCLASSIFIED

              800-3718 states that the organization is required to update the plans of action and
              milestones on an ongoing basis.

        The deficiencies within the POA&M process occurred because the Department had not
developed criteria to prioritize the importance of security weaknesses from both an enterprise
and bureau basis. Currently, the Department permits each bureau to prioritize risks within its
respective environment and to budget accordingly without consideration of the risk and exposure
to the Department as a whole. If the Department does not appropriately prioritize corrective
actions on an enterprise basis, the most important actions (highest security risks) may not receive
the required resources for remediation, thereby exposing the Department’s sensitive data,
systems, and hardware to unauthorized access and activities.

        Currently, IRM/IA issues a quarterly POA&M Grading Memorandum process; however,
this memorandum is distributed to the bureaus’ or offices’ ISSOs and not to senior management.
Without the proper review and maintenance of POA&Ms, IT management may not be aware of
the status of remediation. Furthermore, the inadequacy of the POA&M process adversely effects
the capital planning process.

           Recommendation 7. We recommend that the Chief Information Officer:

           	 Implement a Plans of Action and Milestones (POA&M) tracking process
              for all ClassNet security weaknesses as required by Committee on National
              Security Systems Policy Number 22, Information Assurance Risk
              Management Policy for National Security Systems.
           	 Distribute the quarterly POA&M Grade Memorandums to the bureaus’ and
              offices’ senior management (executive director) as required by M-04-25,
              FY 2004 Reporting Instructions for the Federal Information Security
              Management Act.
           	 Ensure that the POA&M completion dates and the required resources for
              OpenNet corrective actions are updated as required by OMB Memorandum
              M-04-25.

           Management Response: The Department stated that it “concludes that the problems
           identified are not material (or are now being addressed) for the following reasons:

                 The Department has a compliant process for tracking POA&M items on
                  ClassNet.
                 The Department has started distributing quarterly grades (effective Q1-
                  FY2012) to executive officers, as recommended.
                 Quarterly updates to POA&M data are not warranted, unless there has been a
                  change of status. The grading covered under the prior bullet addresses this issue.”

           The Department also stated that the iPost system “performs many of the functions of a
           POA&M system at a level of timeliness and detail that the traditional POA&M approach
           cannot achieve. Given the MIT Lincoln Labs findings on the trade-off between

18
     NIST SP 800-37.
                                                   16
                                           UNCLASSIFIED
                                               UNCLASSIFIED


        completeness and timeliness discussed previously, the Department concludes that
        deficiencies in the traditional POA&M system are not a material risk to the security of
        the Department, given iPost as a compensating control.

        OIG Analysis: OIG considers this recommendation unresolved. The Department did
        not provide evidence during the evaluation that the POA&M process was all inclusive.
        The Department POA&M process on ClassNet does not include identified security
        vulnerabilities during security testing, OIG audits, or other assessments. Therefore, this
        process fails to track Department actions to remediate identified weaknesses.
        Additionally weaknesses that are identified in the scanning results are not added to the
        POA&M tracking. Although the Department stated that it had started distributing the
        quarterly memorandums, it did not take this action within the time period of the FISMA
        evaluation. The Department stated that iPost has replaced the traditional POA&M
        process. The independent public accountant determined, based on the issues noted with
        iPost (detailed in section G), that the system is not mature enough to compensate for the
        POA&M process. This recommendation can be resolved when the Department can
        document that the POA&M process includes the required elements for tracking, that the
        POA&M process accounts for weaknesses identified by all sources (scans, assessments,
        and OIG findings), and corrective actions are taken in the accordance with NIST and
        OMB requirements.

E. Account Management Processes in Active Directory Need To Be Improved
       The Department needs to improve account management processes in Active Directory
(AD) for OpenNet and ClassNet. In FY 2010, OIG reported deficiencies in account
management, and we found that account management deficiencies still existed within AD for
OpenNet and ClassNet.

        From a population of approximately128,000 OpenNet AD users’ accounts, we identified
the following deficiencies:

        	 Approximately 400 guest, test, and temporary accounts were in the AD
           accounts. The FAM19 states, “The data center manager and the system
           manager may not maintain permanent user IDs and passwords on AISs for
           visitors, vendor service personnel, training, demonstrations, or other
           purposes.”

        	 Approximately 9,000 accounts have not been used (never logged on). The
           FAM20 requires user privileges to be reviewed annually to verify that
           privileges are still appropriate.

        	 Approximately 400 accounts with passwords set not to expire. The FAM21
           requires passwords to be changed at least every 60 days.

19
   12 FAM 622.1-3(b), “Password Controls.” 

20
   12 FAM 622.1-3(i).
	
21
   12 FAM 622.1-3(j).
	
                                                    17
                                               UNCLASSIFIED
                                             UNCLASSIFIED


        	 Approximately 300 Install Accounts were within AD accounts. The FAM22
           requires the removal of non-permanent (that is, visitor and training) user
           accounts and passwords.

       From a population of approximately 36,000 ClassNet AD accounts, we identified the
following discrepancies:

        	 Approximately 200 guest, test, and temporary accounts were in the AD
           accounts. The FAM23 states, “The data center manager and the system
           manager may not maintain permanent user IDs and passwords on AISs for
           visitors, vendor service personnel, training, demonstrations, or other
           purposes.”

        	 Approximately 4,000 accounts have not been used (never logged on). The
           FAM24 requires user privileges to be reviewed annually to verify that
           privileges are still appropriate.

        	 Approximately 900 accounts with passwords set not to expire. The FAM25
           requires passwords to be changed at least every 60 days.

        	 Approximately 200 Install Accounts were within AD accounts. The FAM26
           requires the removal of non-permanent (that is, visitor and training) user
           accounts and passwords.

        Each bureau and post is responsible for user account management, such as adding new
users and removing or modifying existing users’ accounts. Additionally, the Department had not
developed and implemented processes and procedures to ensure that bureaus and posts
performed an annual review and recertification of users’ privileges. Inadequate account and
identity management controls increase the risk that temporary and active accounts may be
accessed and used by Department and contractor personnel to perform unauthorized activities,
such as modifying or improperly releasing sensitive Department information or accessing and
modifying operating system software.

        Recommendation 8. We recommend that the Chief Information Officer (CIO) develop
        and implement Department of State processes and procedures to resolve weaknesses in
        user accounts to ensure that unnecessary network user accounts are promptly removed by
        the bureaus and posts. Further, the CIO should develop and implement procedures to
        ensure that bureaus and organizational unit administrators annually review and recertify
        access privileges of users so that the number of guest, test, and temporary accounts are
        managed effectively as required by the Foreign Affairs Manual 12 FAM 622 and 12
        FAM 629.


22
   12 FAM 629.2-2(c), “Administrative Security – Password Controls.”
	
23
   12 FAM 632.1-4(d), “Password Controls.”
	
24
   12 FAM 622.1-3(i).
	
25
   12 FAM 622.1-3(j).
	
26
   12 FAM 629.2-2(c), “Administrative Security – Password Controls.”
	
                                                      18
                                             UNCLASSIFIED
                                             UNCLASSIFIED


        Management Response: The Department stated that it “agrees there is a potential risk”
        with user accounts and that it will, begin “scoring stale accounts in iPost.” The
        Department further stated that it will, in December 2011, “conduct a more complete
        assessment of this problem and determine what prioritized mitigation actions are justified
        by the current level of risk.”

        The Department also stated that based on “a preliminary investigation of the accounts
        identified as deficient by the OIG using a random sample of accounts in each of the
        remaining categories,” it found that OIG “had overestimated the level of deficiency by a
        large percentage.”

        OIG Analysis: OIG considers this recommendation resolved, pending further action.
        OIG has determined that accounts such as group mailboxes accounts and service accounts
        that have not been used and are active are vulnerable to insider exploitation. The
        Department should also consider the weaknesses identified in the user accounts analyses
        when performing its own analyses. Because the Department has agreed to conduct a
        more complete assessment of this problem, this recommendation can be closed when
        OIG reviews and accepts documentation showing that the Department is properly
        maintaining the Active Directory.

F. The User Provisioning Process for Creating, Modifying, and Disabling
   Users’ Accounts Requires Significant Improvement
        The Department’s user provisioning process for creating, modifying, and disabling users’
accounts is not in compliance with the FAM. The FAM27 requires ISSOs to maintain all
password/receipt acknowledgement forms to comply with NIST SP 800-53.28 The FAM29 also
states the data center manager and the system manager, in conjunction with the ISSO, must
revoke user access privileges for employees and contractors who are transferred or terminated.
We found control deficiencies within the Department’s user provisioning process as follows:

        	 Two of 25 ClassNet Domain Administrators accounts did not have 

           corresponding individual user accounts, which results in no individual 

           accountability of actions for Domain Administrators. 


        	 Of 894 separated FTE accounts, 294 accounts were not terminated or
           deactivated in a timely manner. In addition, of the 294 accounts that were
           terminated, 104 had a remote access security token.

        	 All 25 new user accounts created within the past fiscal year did not have
           documentation (Password/Receipt Form) available for audit.

        	 All seven network administrator accounts created within the past fiscal year
           did not have documentation available for audit.
27
   12 FAM 622.5, “Log and Record Keeping.”
	
28
   NIST SP 800-53, rev. 3, Aug. 2009, Recommended Security Controls for Federal Information Systems and 

Organizations. 

29
   12 FAM 621.3-3, “System Access.” 

                                                     19
                                             UNCLASSIFIED
                                        UNCLASSIFIED


       	 One of 25 OpenNet domain administrators/administrators accounts was
          used as a group account.

       The user provisioning weaknesses occurred because the ISSOs are not performing their
user account responsibilities of creating, disabling, and reviewing user access in an effective
manner. The Department had not established the controls necessary to ensure the bureau and
post ISSOs perform their duties effectively by disabling accounts.

        These control weaknesses increase the potential that unauthorized activities can occur
without timely detection, which adversely affects confidentiality, integrity, and availability of the
data on OpenNet and ClassNet. In addition, an ineffective user provisioning program and
ineffective procedures and practices increases the Department’s risk of unauthorized users
having access to the network to enable the performance of unauthorized activities such as
modifying Department sensitive data, improperly releasing sensitive data, or intentionally
destroying sensitive data.

       Recommendation 9. We recommend that the Chief Information Officer (CIO) ensure
       compliance with the account management process to make certain that user and
       administrator accounts are created, modified, and deleted in a manner consistent with
       Department of State policy. Further, the CIO needs to compare the terminated user
       listings provided by bureau and post personnel officers with information contained in the
       active directory on a quarterly basis to ensure that accounts for separated employees are
       removed timely, as required by NIST SP 800-53, Revision 3, August 2009,
       Recommended Security Controls for Federal Information Systems and Organizations,
       and the Foreign Affairs Manual (12 FAM 621.3).

       Management Response: The Department stated that the deactivation of accounts
       recommendation is related to a financial audit. The Department further stated that it “will
       investigate the other findings within six months to determine their scope and materiality
       to the security of the Department” and that based on the results of this review, it “will
       determine a risk-based and cost-effective solution to any issues identified,” which “may
       range from accepting the risk, to further corrective action.”

       OIG Analysis: OIG considers this recommendation resolved, pending further action.
       This recommendation can be closed when the Department provides documentation
       showing proper maintenance related to creating, modifying, and deleting accounts and its
       comparison of the terminated user listings provided by bureau and post personnel officers
       and the information contained in the active directory on a quarterly basis to ensure that
       accounts for separated employees are removed timely, as required by NIST SP 800 53,
       Revision 3, and in a manner consistent with Department of State policy. Additionally the
       Department’s statement that the “deactivation of accounts . . . is related to” the financial
       systems audit presents the appearance that IRM does not fully understand that the
       security weakness is an enterprise-wide vulnerability and is not isolated to the financial
       systems. The financial systems of the Department are only a segment of the entire
       enterprise. Since IRM has done an analysis on the account management on the financial
       systems, the Department needs to consider taking further action for the remainder of the
       enterprise.
                                                 20
                                        UNCLASSIFIED
                                              UNCLASSIFIED



G. Continuous Monitoring Program Needs To Be Improved
        The Department had partially implemented a continuous monitoring program at the
organization level and the system level in accordance with OMB30 and NIST SP 800-37.31
However, the Department had not taken action to resolve the continuous monitoring control
deficiencies identified in the FY 2010 FISMA report Review of the Information Security
Program at the Department of State. We evaluated the Department’s implementation of these
continuous monitoring components and found deficiencies. (The deficiencies are detailed in
Appendix H.) Therefore, the continuous monitoring program is only partially implemented.

        At the organizational level, the ISSC had not developed a formal continuous monitoring
strategy that addresses framing risk, assessing risk, responding to risk, and monitoring risk in
accordance with NIST SP 800-39. Department officials stated that the Department is
implementing continuous monitoring strategy at a cost-effective, risk-based level of detail and
will submit the strategy to the ISSC for approval.

       At the system level, the Department uses the iPost system as its principal system for
implementing continuous monitoring organization-wide. For example, the Department performs
vulnerability assessment scanning every 36 hours. However, this system has not been fully
implemented. The following conditions were reported in the FY FISMA 2010 report on the
Department’s information security program:

        	 The scanning tools do not assess Oracle, the Department’s most common
           database system, and UNIX security configurations for configuration
           control weaknesses, which could adversely impact application access
           controls.

        	 Scanning results for routers, firewalls, and Demilitarized Zone servers were
           not available in iPost; therefore, these results were not used in risk scoring.

       We found that the Department had not documented an enterprise-wide continuous
monitoring program strategy within its System Security Plans (SSP) to assist system owners in
evaluating various control deficiencies. The evaluation identified 11 of 30 systems in which the
system security plan lacked a continuous monitoring strategy for the system. The strategy was
not updated because the System Security Officer (SSO) did not update the SSPs in accordance
with NIST SP 800-53, Revision 3 and NIST SP 800-37. Specifically, NIST SP 800-37 requires

30
   OMB M-11-33 states, “Agencies should develop an enterprise-wide strategy for monitoring security controls on
an ongoing basis. A robust and effective continuous monitoring program will ensure important procedures included
in an agency's security authorization package (e.g., as described in system security plans, security assessment
reports, and POA&Ms) are updated as appropriate and contain the necessary information for authorizing officials to
make credible risk-based decisions regarding the security state of the information system on an ongoing basis. This
will help make the security authorization process more dynamic and responsive to today's federal missions and
rapidly changing conditions. NIST SPs 800-37, Revision 1; NIST SP 800-53, Revision 3; and NIST SP 800-53A
Revision 1, provide guidance on continuous monitoring programs.”
31
   The security documentation needed for continuous monitoring, which includes security impact analyses, security
control assessments reports, plans of action and milestones, and authorization documentation, is described in NIST
800-37, rev.1, Guide for Applying the Risk Management Framework to Federal Information Systems (Feb. 2010),
app. G, “Continuous Monitoring–Managing and Tracking the Security State of Information Systems.”
                                                           21
                                              UNCLASSIFIED
                                            UNCLASSIFIED


that an organization-defined continuous monitoring strategy be implemented. NIST SP 800-53,
Revision 332 requires that the organization establish a continuous monitoring strategy and
implement a continuous monitoring program that includes a configuration management process,
security impact analysis, ongoing security control assessment, and a method to report the
security state of the system to appropriate organizational officials. During the course of our
evaluation, we inquired about the implementation of iPost on ClassNet and were informed that
iPost was not currently implemented. Therefore, we did not perform an assessment of any hosts
or networks residing on ClassNet. Furthermore, we discovered that iPost was in production on
ClassNet as of August 2011, which exceeded our testing timeframe.

       Additionally, the Government Accountability Office (GAO), in July 2011, issued a
continuous monitoring report on the Department’s iPost system.33 GAO stated the following
concerning iPost:

        While State has reported success with implementing iPost to provide ongoing
        monitoring of certain controls over Windows hosts on OpenNet and reporting the
        status of these controls across the enterprise to appropriate officials, the
        department faces an ongoing challenge in continuing this success because it does
        not have a documented continuous monitoring strategy in place.

        In addition to those weaknesses identified in the FY 2010 FISMA report on the
Department’s information security program and the specified weaknesses presented in the GAO
report, the FY 2011 evaluation identified weaknesses with the Department’s existing continuous
monitoring approach to include the following:

        	 The Department did not identify all Windows operating systems or 

           Department assets on OpenNet. 


        	 The Department did not take into consideration those security controls that
           cannot be tested with automation (that is, physical and environmental
           controls, effectiveness of the IT security training, and the newest family of
           controls that deal with IT program management).

        Not having a robust continuous monitoring program prevents an organization from fully
understanding the security state of the information system over time. It also limits an
organization’s ability to effectively monitor its environment with changing threats,
vulnerabilities, and technologies, thereby effecting missions/business functions. Without a fully
implemented continuous monitoring program, management cannot conduct ongoing
authorizations of information systems.

        Recommendation 10. We recommend that the Information Security Steering Committee
        develop, document, and implement an enterprise-wide continuous monitoring strategy
        that addresses framing risk, assessing risk, responding to risk, and monitoring risk, as
        required by NIST SP 800-39, Managing Information Security Risk.
32
 NIST SP 800-53, CA-7, “Continuous Monitoring.”
33
 Information Security: State Has Taken Steps To Implement a Continuous Monitoring Application, but Key
Challenges Remain (GAO-11-149, July 8, 2011).
                                                     22
                                            UNCLASSIFIED
                                            UNCLASSIFIED


        Management Comments: The Department stated that it “agrees some increased level of
        documentation,” as was recommended, “would be valuable.”

        OIG Analysis: OIG considers this recommendation resolved. The recommendation can
        be closed when OIG reviews and accepts documentation showing that the ISSC has
        developed, documented, and implemented an enterprise-wide continuous monitoring
        strategy.

        Recommendation 11. We recommend that the Chief Information Officer in
        accordance with the requirements in NIST SP 800-39, Managing Information
        Security Risk:

        	 Implement a continuous monitoring strategy at the enterprise-wide level.

        	 Obtain and use scanning software to enable effective scans of non-
           Windows operating systems, databases, firewalls, routers, and switches.

        	 Develop operating procedures to ensure the results are included in the Risk
           Scoring Program dashboard.

        	 Develop procedures to ensure that System Security Owners update the
           system security plans to include a continuous monitoring strategy to detail
           how system security controls are to be monitored.

        Management Response: The Department stated that it is “already engaged in” efforts
        pertaining to the scanning software, that it will “pursue [these efforts] with an appropriate
        level of priority,” that it “will expand the coverage of the risk scoring program,” and that
        it “will continue to expand coverage of risk in iPost.” As far as documenting a strategy in
        its security plans, the Department stated that “the continuous monitoring strategy is an
        enterprise level strategy” and therefore “does not need to be addressed in detail in every
        system security plan.”

        Regarding implementation of a continuous monitoring strategy at the enterprise-wide
        level, the Department stated that this implementation “will require continuous
        improvement and thus never be completed” and that its “current continuous monitoring
        implementation is being copied as a model by other government agencies and the private
        sector.”

        OIG Analysis: OIG considers this recommendation unresolved. Although OIG is aware
        that the Department has received nation-wide recognition for its continuous monitoring
        program, the Department must document a continuous monitoring strategy in every
        security plan, as required by NIST.

        Furthermore, in its response to the Government Accountability Office’s July 2011 report
        on information security,34 the Department responded as follows: “State officials
34
 Information Security: State Has Taken Steps to Implement a Continuous Monitoring Application, but Key
Challenges Remain (GAO 11-49, July 2011).
                                                      23
                                            UNCLASSIFIED
                                                UNCLASSIFIED


         indicated that the focus on Windows hosts for risk scoring was due, in part, because of
         the desire to demonstrate success of the risk scoring program before considering other
         types of network devices.”

         Also, the Department needs to provide OIG documentation showing a documented
         enterprise-wide level continuous monitoring strategy, scanning results of non-Windows
         systems, operating procedures to include non-Windows scan results in iPost, and
         continuous monitoring plans at the system level.

H. The Continuity of Operations Program Needs to Be Improved
       The Department’s Continuity of Operations Program is not operating effectively and has
not been documented in accordance with NIST SP 800-34 and FCD-2.35 The Department is
required by NIST to have a collection of plans to prepare for response, continuity, recovery, and
resumption of mission/business processes and information systems.

       We found that the Continuity of Operations Plan (COOP) Communication Plan (CCP) for
emergency communications and the network had not been updated with significant changes since
2008. The COOP CCP had not been updated in accordance with NIST SP 800-3436 because
IRM focuses on the Bureau Emergency Action Plan (BEAP)37 instead of the CCP, which
contributes to the continuation of communications and the network for the entire Department.
For example, the following significant changes occurred but were not updated:

         	 The mirrored data redundancy within OpenNet between the Enterprise
            Service Operations Center (ESOC) East, the Harry S. Truman Building, and
            the Beltsville Information Management Center.

         	 The deployment of the SMART Core Messaging Application- Unclassified
            and the SMART Core Messaging Application- Classified, which both
            provide the ability to electronically release (send) and receive formal
            Departmental messages, interest profiling, message archiving,
            dissemination rules, and Role-Based Access Controls.

         	 The retirement of the mainframes at the Department of State.

35
   Federal Continuity Directive 2 (FCD-2) (February 2008), “Federal Executive Branch Mission Essential Function
and Primary Mission Essential Function Identification and Submission Process,” provides guidance and direction to
Federal Executive Branch departments and agencies in the process for identifying their mission essential functions
(MEFs), potential primary mission essential functions (PMEFs), and national essential functions (NEFs), and the
Business Process Analysis (BPA) and Business Impact Analysis (BIA) that support and identify the relationships
between these essential functions. It also provides guidance on the processes for conducting a BPA and BIA for
each of the potential PMEFs that assist in identifying essential function relationships and interdependencies, time
sensitivities, threat and vulnerability analyses, and mitigation strategies that affect and support the PMEFs. Also, see
FDC-1, Federal Executive Branch National Continuity Program and Requirements, from which FCD-2 is derived.
36
   NIST SP 800-34, rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010 (last updated
Nov. 11, 2010).
37
   6 FAM 422.3(a), “Bureau Emergency Action Plan (BEAP),” defines a BEAP as a “bureau-specific plan used to
describe actions taken to ensure the safety of Department employees and to ensure bureau readiness to continue
MEFs across a wide range of domestic emergencies that impact the Department.”
                                                            24
                                                UNCLASSIFIED
                                           UNCLASSIFIED



           	 The development of the new data center ESOC West.

           In addition, we identified the following deficiencies:

           	 IRM had not documented an entity-wide Business Impact Analysis (BIA) to ensure
              the coordination of the recovery prioritizations of critical mission/business processes
              and services in the event of a disruption within the ESOC. The BIA had not been
              documented because IRM does not think that the entity-wide BIA applies to its
              contingency planning process. However, NIST SP 800-34, Revision 1,38 states that
              the BIA helps identify and prioritize information systems and components critical to
              supporting the organization’s mission/business processes.

           	 The entity-wide process-based BIA, which supports COOP functions developed by
              the Office of Emergency Management (OEM) to support Federal Continuity
              Directive 2 (FCD-2), does not agree with the OpenNet Contingency Plan. For
              example, OEM officials stated that the infrastructure should not be interrupted in the
              event of a disaster, and IRM officials stated that the infrastructure Maximum
              Tolerable Downtime is 24 hours. The inconsistency between the two documents
              occurred because the Department does not require OEM and IRM to coordinate with
              the continuity of operations planning. According to NIST SP 800-34, Revision 1,
              information systems that support COOP functions will be identified in the process-
              based BIA.

       An out-of-date COOP CCP increases the risk that the Department may not be able to
recover in a timely manner or may experience difficulty in recovering from a disaster.
Additionally, the IRM CCP supports the Department COOP; therefore, the COOP relies upon the
CCP to be current. Without a BIA, there is an increased risk that the Department will not
recover mission-critical functions based on established recovery priorities. Additionally, the lack
of communication between OEM and IRM may cause incongruent requirements and the
expectations in the availability of the infrastructure in the event of a disaster.

           Recommendation 12. We recommend that the Chief Information Officer, as required by
           NIST SP 800-34, Revision 1, “Contingency Planning Guide for Federal Information
           Systems,” take the following actions:

           	 Update the Continuity of Operations Communication Plan annually or
              when changes occur to the organization, network hardware, systems, and
              applications and, if necessary, after Continuity Testing.

           	 Perform an entity-wide Business Impact Analysis and develop a strategy to
              prioritize recovery of the critical assets within the Department of State.

           	 Update the Foreign Affairs Manual that contains guidance and direction for
              development and implementation of Continuity of Operations
              Communication Plan.

38
     NIST SP 800-34, rev. 1.
                                                    25
                                           UNCLASSIFIED
                                              UNCLASSIFIED


           Management Response: The Department indicated that it would take the actions
           recommended except for performing an entity-wide BIA and developing a strategy to
           prioritize recovery of the critical assets.

           OIG Analysis: OIG considers this recommendation unresolved. This recommendation
           can be resolved when the Department agrees to perform an entity-wide BIA and develop
           a strategy to prioritize the recovery of the critical assets. The Department also needs to
           provide OIG documentation showing that the Department is updating the Continuity of
           Operations Communication Plan annually or when changes occur and provide evidence
           that the FAM has been updated to include guidance on the development and
           implementation of the Communication Plan.

           Recommendation 13. We recommend that the Bureau of Administration,
           Office of Emergency Management, in coordination with the Chief Information
           Officer, align the Business Impact Analysis of the Primary Mission Essential
           Functions with the Bureau of Information Resource Management’s Maximum
           Tolerable Downtime for the network as required by NIST SP 800-34, Revision
           1, Contingency Planning Guide for Federal Information Systems.

           Management Response: The Department stated that it “considers the documents already
           aligned” but that it would develop criteria to determine when the BIA and the Department
           GSS downtime is “adequately coordinated” and “verify that these criteria are met.”

           OIG Analysis: OIG considers this recommendation resolved. This recommendation can
           be closed when OIG reviews and accepts documentation showing that the Department
           has updated the Foreign Affairs Manual and the Continuity of Operations
           Communication Plan and that is has aligned the BIA of the Primary Essential Functions
           with the Maximum Tolerable Downtime of the network.

I. Information System Contingency Plans Needs To Be Improved
       The Department needs to improve the information system contingency planning program.
An effective contingency planning program is designed to mitigate the risk of system and service
unavailability by providing effective and efficient solutions to enhance system availability.

       We found that information system contingency plans (ISCP) had not been documented in
accordance with NIST SPs 800-34, Revision 1, and 800-53, Revision 3, and with the FAM.39 In
our sample of 25 systems, we found the following deficiencies:

           	 Three systems–OpenNet, WebPass, and TDS Contingency Plans (CP)–had
              not documented an alternate recovery site. According to NIST SPs 800-34,
              Revision 1, and 53, Revision 3, agencies are required to identify an
              alternate storage site that is geographically separated from the primary
              storage site so that the alternate site is not susceptible to the same hazards.


39
     5 FAM 1064.2, “Contingency Planning and Continuity of Operations.”
                                                       26
                                              UNCLASSIFIED
                                             UNCLASSIFIED


        	 One system–State Messaging and Archive Retrieval Toolset (SMART) -
           Classified system–did not have a CP. The FAM40 states that system owners
           and non-Department entities are required to develop and maintain
           contingency plans for the major applications and general support systems
           under their control that process, store, or transmit Federal information.

        	 Two systems–eCountryClearance (eCC) and Secure Integrated Logistics
           Management System (S-ILMS)–CPs were not sufficiently detailed to
           enable the proper recovery and damage assessment. NIST SP 800-34,
           Revision 1,41 requires the agency to address specific actions the
           organization should take following a system disruption or an emergency.
           Plans should be formatted to provide quick and clear directions in the event
           that personnel unfamiliar with the plan or the systems are called upon to
           perform recovery operations.

        	 Fifteen systems did not document the annual backup test, as required by
           NIST42 for moderate- and high-impact systems, to verify media reliability
           and information integrity. (Systems that did not have annual backup testing
           are described in Appendix F).

        	 Three systems–OpenNet, WebPass, and TDS–had not documented backup
           procedures.

        The control deficiencies occurred within the contingency planning program because the
Department relies extensively on the system owners and bureaus to execute the Department’s
policies, establish and implement internal procedures, and ensure compliance with NIST SP 800-
34, Revision 1.

       Additionally, the Department had not developed reporting requirements for obtaining
assurance of performance from the system owners and bureaus. By inadequately documenting
the contingency plan, there is an increased risk that the Department will not be able to recover its
mission-critical systems timely in the event of a significant disruption. Also, the Department
increases the risks that it will not be able to meet its mission requirements and continue normal
business activities.

        Recommendation 14. As required by National Institute of Standards and Technology
        (NIST) Special Publications (SP) 800-34, Revision 1, Contingency Planning Guide for
        Federal Information Systems, and SP 800-53, Revision 3, Recommended Security
        Controls for Federal Information Systems and Organizations, we recommend that the
        Bureau of Information Resource Management, Office of Information Assurance, in
        coordination with the bureaus and system owners, take the following actions:


40
   5 FAM 1064.2(a)(1). 

41
   NIST SP 800-34, rev. 1, Contingency Planning Guide for Federal Information Systems (May 2010) (last updated
	
Nov. 11, 2010). 

42
   NIST SP 800-53, rev. 3, Recommended Security Controls for Federal Information Systems and Organizations

(Aug 2009).
	
                                                      27
                                             UNCLASSIFIED
                               UNCLASSIFIED



	 Document and maintain alternate site locations and procedures for
   accessing an alternate site.

	 Develop and maintain contingency plans for all major applications and
   general support systems.

	 Maintain and update recovery and restoration procedures for all
   applications and general support systems.

Management Response: The Department stated it “will document compliance and/or
non-compliance to the OIG findings and take the necessary corrective action.”

OIG Analysis: OIG considers this recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the Department
has documented and is maintaining and updating the contingency plan program
documentation.

Recommendation 15. As required by National Institute of Standards and Technology
(NIST) Special Publications (SP) 800-34, Revision 1, Contingency Planning Guide for
Federal Information Systems and SP 800-53, Revision 3, Recommended Security
Controls for Federal Information Systems and Organizations, we recommend that the
Chief Information Officer:

	 Revise the Information Resource Management/ Information Assurance
   Contingency Plan Test Review checklist to address the following items:

           o	 Recovery and damage assessment procedures

           o	 Alternate recovery site details

           o	 Back-up procedures

           o	 Back-up test results for moderate- and high-impact systems

	 Revise the Contingency Plan Policy to include an organization-defined
   frequency for backup testing.

	 Revise the Foreign Affairs Manual to require system owners to report to
   IRM/IA on the test results and updates to the contingency plans.

Management Response: The Department stated it “will document compliance and/or
non-compliance to the OIG findings and take the necessary corrective action.”

OIG Analysis: OIG considers this recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the Department
has updated the FAM policy regarding backup and updates to the contingency plans, has
updated the Contingency Plan Test Review checklist, and has remediated deficiencies
found within the individual information system contingency plans.
                                        28
                               UNCLASSIFIED
                                          UNCLASSIFIED



J. Oversight of Contractor Systems and Extensions Needs Improvement
        The Department had not implemented an effective program for the oversight of
contractor systems and contractor extensions (remote network connections to Department
systems). Although the Department established initial contract agreements and conducted initial
risk assessments for contractor extensions, we noted several deficiencies. For example, COCO
systems did not have security-related documentation. The FAM43 and NIST SP 800-4744 require
that the Department document the interconnection agreements between the network and the
contractor with language similar to that contained in a memorandum of understanding (MOU)
and an interconnection security agreement (ISA). The agreement must be submitted to IRM/IA.

       Specifically, for COCO systems, IRM/IA did not provide documentation for the
following:

        	 For all five COCO systems, a contractor agreement and system security
           documentation were lacking for the State Assistance Management System
           (SAMS); the Consular Visa System (CVS); the Antiterrorism Assistance
           (ATA) Student Database; the Foreign Service Office Tester (FSOT) system,
           and the Gateway to State (GTS). The Department relies on a decentralized
           security program whereby system owners/bureaus are responsible for
           overseeing COCO systems that provide services to a bureau.

        	 Of five COCO systems, ATOs were not made available for review for four
           systems (SAMS, CVS, ATA database, and FSOT). According to OMB,45
           the Department must assess security controls in accordance with NIST
           guidelines for contractor systems that collect, process, maintain, and house
           Government information.

       The list of OpenNet extensions does not contain a complete inventory of workstations at
other Government agencies. For example, OpenNet terminals (workstations) were observed by
an OIG audit team at International Boundary and Water Commission (IBWC) and Broadcasting
Board of Governors (BBG) offices. These connections are not on the list of OpenNet extensions.
The Department tracks only OpenNet extensions at contractor sites and vendors and does not
include other third parties, such as Government agencies.

        We also found that the Department did not have an effective mechanism in place to
identify the total number of contractors’ personnel who had access to and privileges within the
Department’s network, applications, databases, and data. OMB Memorandum M-11-33 states:
“Agencies must develop policies for information security oversight of contractors and other users
with privileged access to Federal data. Agencies must also review the security of other users
with privileged access to Federal data and systems.”


43
   5 FAM 1065.3-1, “Requests for Interagency and Non-Department Connectivity.”
	
44
   NIST SP 800-47, Security Guide for Interconnecting Information Technology Systems,, Aug 2002. 

45
   OMB Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information Security Management

Act and Agency Privacy Management.

                                                        29
                                          UNCLASSIFIED
                                        UNCLASSIFIED


        The Department’s contractor oversight process is decentralized whereby the Department
assigns responsibility to the bureaus and posts and the system owner to provide better contractor
oversight. For instance, to obtain information on the total number of Department contractor
personnel, personnel from each Department bureau and office would have to be contacted. The
Department had not established procedures to identify the number of contractors. DS and HR
officials stated that they are collaborating to develop a Contractor Personnel Support System.
According to DS officials, once the system is fully implemented and integrated with other
systems, it will provide contractor oversight information for the Department.

        Without adequate contractor oversight, the Department has minimal assurance that
COCO systems, contractor extensions, and contractor personnel are compliant with FISMA,
OMB requirements, and NIST standards. Additionally, without oversight, there is an increased
risk that Department data collected, processed, and maintained can be exposed to unauthorized
access, use, disclosure, disruption, modification, or destruction.

       Recommendation 16. We recommend that the Chief Information Officer, as required by
       the Foreign Affairs Manual (5 FAM 1065.3) and the National Institute of Standards and
       Technology Special Publication 800-47, Security Guide for Interconnecting Information
       Technology Systems, take the following actions:

       	   Ensure that the contractor oversight program complies with Office of Management
            and Budget, Federal Information Security Management Act, National Institute of
            Standards and Technology, and the Foreign Affairs Manual security policies,
            standards, and requirements for managing Contractor Owned Contractor Operated
            systems; specifically, all security-related documentation for such systems should be
            retained.

       	   Implement a COCO system security program whereby COCOs are overseen by the
            Bureau of Information Resource Management/Information Assurance.

       Management Response: The Department indicated that it will align its contractor
       oversight program with Federal standards and guidelines. However, the Department
       stated that it “does not agree that [the] assignments [to implement a program whereby
       COCOs are overseen by IRM/IA] need to be changed.”

       OIG Analysis: OIG considers the recommendation unresolved. Because contractor
       systems pose an even greater security risk because of the lack of Department presence, a
       COCO system security program overseen by IRM/IA is needed, and the Department
       needs to this action. Regarding the contractor oversight program, the Department needs
       to provide OIG documentation showing that it has aligned its contractor oversight
       program with Federal standards and guidelines.

       Recommendation 17. We recommend that the Bureau of Diplomatic Security develop
       and implement new and enhanced security requirements to coordinate security activities
       for tracking all extensions (that is, contractor sites, other Government agencies, and third-
       party vendors) to OpenNet and ClassNet, as required by the Office of Management and

                                                30
                                        UNCLASSIFIED
                                       UNCLASSIFIED


       Budget Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal
       Information Security Management Act and Agency Privacy Management.

       Management’s Response: The Department stated that it “will verify” that all
       Department computers at other Federal agencies “are clearly documented” and that it
       had not found any “defects with regard to the process for contractor sites.”

       OIG Analysis: OIG considers this recommendation resolved. This recommendation can
       be closed when OIG reviews and accepts documentation showing that the Department
       has developed and is implementing new and enhanced security requirements to
       coordinate security activities for tracking all extensions to include contractor sites.

       Recommendation 18. We recommend that the Bureau of Diplomatic Security, in
       coordination with the Bureau of Administration, establish procedures to identify the total
       number of contractors who have access to Department of State systems, as required by
       Office of Management and Budget Memorandum M-11-33, FY 2011 Reporting
       Instructions for the Federal Information Security Management Act and Agency Privacy
       Management.

       Management Comments: The Department stated that it does not agree with the
       recommendation because “knowing the exact total number of contractors (a continuously
       changing number)” does not impact the security of the Department and OMB
       Memorandum M-11-33 does not require this.

       OIG Analysis: OIG considers this recommendation unresolved. OMB Memorandum
       M-11-33 requires that agencies provide security training and awareness to all employees,
       including contractors, and further requires agencies to develop policies for information
       security oversight of contractors and other users who have privileged access to Federal
       data. This recommendation can be resolved when the Department agrees to take action to
       identify its total number of contractors.

K. Capital Planning Requires Improvement
        We found that information security was not fully integrated into the Department’s Capital
Planning and Investment Control (CPIC) process. As a result, management may be unaware of
the Department’s complete IT security portfolio. CPIC is the decision-making process for
ensuring that IT investments integrate strategic planning, budgeting, procurement, and IT
security in support of agency missions and business needs. OMB Memorandum 11-33 mandates
the Department integrate and fund IT security over the lifecycle of each system. The
memorandum also states that security requirements for a steady state system, which is an
existing system, that generates maintenance and operation costs at current capability and
performance level must be met before new funds are spent on new systems or an existing system
is modernized.




                                               31
                                       UNCLASSIFIED
                                               UNCLASSIFIED


        For four46 of 10 appropriated IT security investments reviewed, the Department did not
provide documentation showing obligations and expenditures. Approximately $164 million was
appropriated for the IT security investments; however, because of the lack of documentation for
the project expenditures, there is an increased risk associated with the potential inability to
achieve overall security program objectives within defined cost, schedule, and technical
constraints. The CIO did not comply with provisions of the Clinger-Cohen Act of 1996, which
require assumption of responsibility and accountability for IT investments. Inadequate
monitoring shows a lack of accountability once funds are approved.

         We identified the following control weaknesses related to the CPIC process:

         	 The Department did not provide OMB with required information related to
            IT security investments that have a significant dependency for the IT
            Infrastructure major investment. In a sample of 10 non-major investments
            that made up the IT Infrastructure major investment, we found none of the
            10 investments were identified by the unique project identifier (UPI) in
            OMB Circular A-1147 Exhibit 300, 48 even though OMB requires an agency
            to report IT security initiatives and investments not directly tied to a major
            investment on a separate line identified as “non-major.” By not including
            IT security investments that have a significant dependency on the IT
            infrastructure major investment in the exhibit 300, OMB does not have an
            accurate amount spent on IT security.

         	 IT security costs from the Department’s Plans of Actions and Milestones
            (POA&Ms) are not captured in the capital planning process. Specifically,
            the Department’s implementation of the POA&M process did not reflect the
            unique project identifiers (UPI)49 for each corrective action plan as required
            by OMB.50 According to OMB, security costs identified in POA&Ms are
            required to be captured within each investment’s Exhibit 300 and
            summarized to Exhibit 53.51

                IRM had not developed procedures to reflect guidelines contained in the FY 2010
         OMB Circular A-11, which states that non-major investments that are directly tied to
         major investments can be collapsed into a major investment. The Department was not
         aware of the OMB52 requirement that each POA&M must have a unique project

46
   The four systems are Department Bandwidth Management, Foreign Affairs Network, IT Infrastructure–IRM, and 

Enterprise Network Management. 

47
   OMB Circular A-11, Preparation, Submission, and Execution of the Budget.

48
   Exhibit 300, Capital Asset Plan and Business Case Summary, is the document OMB uses to assess investments 

and ultimately make funding decisions. The exhibit also provides OMB with a robust assessment of the investment 

and is the vehicle for IT investments to justify lifecycle and annual funding requests to OMB. 

49
   UPIs consist of the identifier depicting agency code, bureau code, mission area (where appropriate), part of the
	
exhibit where investment will be reported (Exhibit 300), type of investment, agency four-digit identifier, and two-

digit investment category code.

50
   OMB Memorandum M-02-01, Guidance for Preparing and Submitting Security Plans of Action and Milestones.

51
   Exhibit 53, Agency IT Investment Portfolio, provides an overview of the agency’s entire IT portfolio by listing
	
every IT investment, lifecycle, and budget-year cost information.

52
   OMB Memorandum M-02-01, Guidance for Preparing and Submitting Security Plans of Action and Milestones.

                                                            32
                                               UNCLASSIFIED
                                UNCLASSIFIED


identifier. Without providing proper justification for funds, the Department’s
accountability of the IT Infrastructure investment is not fully supported. The lack of
integration between the POA&M process and the capital planning process negatively
affects the fund prioritization among the IT investments. Ultimately, inadequate
oversight increases the risk of unapproved investments being funded.

Recommendation 19. We recommend that the Chief Information Officer, as required by
Office of Management and Budget (OMB) Memorandum M-11-33, FY 2011 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management, and OMB Circular No. A–11, Preparation, Submission, and Execution of
the Budget:

	 Ensure that the Bureau of Information Resource Management/ Business Management
   and Planning track all obligations and expenditures for information technology
   security investments.

	 Provide a summary of non-major investments that make up the information
   technology Infrastructure and other major investments.

	 Include the Unique Project Identifier in the Department of State’s Plans of Action and
   Milestones database.

Management Response: The Department stated that it “agree[d]” with this
recommendation “but not the authorities cited.” However, it stated that it will track and
include a summary report for all obligations and expenditures for all IT projects that have
a material level of funding or significant security risk and that it will “[i]nclude UPIs in
the Department’s POA&M for each system.”

OIG Analysis: OIG considers this recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that the Department is
tracking all obligations and expenditures for all IT projects and including UPIs in its
POA&M for each system.




                                         33
                                UNCLASSIFIED
                                       UNCLASSIFIED


                    OIG Additional Analyses of Management Comments

        In its response to the draft report, the Department provided additional comments and
information that were not recommendation specific. These comments and OIG’s responses are
as presented.

Continuous Monitoring

        The Department stated that it disagreed with OIG that continuous monitoring,
as currently conducted, produced lower risk than a traditional C&A program, and on
the relative importance of completeness and compliance vs. timeliness and risk-based
prioritization. Having carefully considered these factors, the Department is convinced
its continuous monitoring program, which is 300 times more timely than traditional
three-year reauthorizations, produces significantly lower security risk on its
networks.”

        OIG continues to support the concept of continuous monitoring. However, as
implemented within the Department, compounded with the lack of documentation that exists,
those deficiencies represent a serious internal control weaknesses. While the Department has
repeatedly questioned the accuracy of the examples provided by OIG to support the weaknesses
identified in this report, the Department has not refuted these weaknesses.

Risk-Based Versus Compliance-Based Assessment

         Regarding the Department’s comments on risk-based versus compliance-based
assessment of the information security program, OIG maintains that the lack of security controls
(internal controls) in the supporting general support systems constitutes a substantial risk to
information and information systems. The Department’s inability to produce a continuous
monitoring and risk management strategy reinforces OIG’s position regarding a defined
approach to addressing risk and taking corrective actions. Because IRM cannot provide a
repeatable process used to identify and correct weaknesses that can be continued by others, OIG
is unable to assess the effectiveness of the existing “risk-based” process. Currently, the process
is under the sole control of limited personnel within IRM and is not fully vested with others
responsible for involvement in the risk based decision making for the Department. Furthermore,
because the continuous monitoring and risk management strategies are not documented, the
ability to continue making decisions that are based on management having an accurate
representation of the vulnerabilities in the Department’s information security program is
questionable. These factors alone contribute to the risk to the Department but if some
catastrophic event occurs to the few IRM employees who are currently managing the continuous
monitoring and risk management strategies the ability to continue would be hampered because
there is no documentation to explain how the process is supposed to be working.

Completeness and Timeliness

        Regarding the statements concerning completeness and timeliness, OIG agrees that the
past 3-year cycle of FISMA did not present a current state of the security controls in an
                                                34
                                       UNCLASSIFIED
                                        UNCLASSIFIED


information system. However, the continuous monitoring approach does not provide a complete
state of information system security controls. The current implementation tests a limited number
of the security controls repeatedly, but it does not provide a methodology to test all of the
security controls over the life of the security authorization, as required by NIST. Although the
current process does provide a timely response to a small subset of the security controls, it lacks
a strategy to explain how other controls are tested and allows the majority of security controls to
be untested. Since many of these controls require a manual assessment to determine the degree
of effectiveness over the course of the security authorization, the inability of the Department to
document the continuous monitoring strategy and a lack of plan of action and milestones to enact
corrective actions place the Department’s vital information and information systems at
significant risk.




                                                35
                                        UNCLASSIFIED
                                       UNCLASSIFIED


                          List of Current Year Recommendations

Recommendation 1. We recommend that the Information Security Steering
Committee (ISSC) meet on a monthly basis to fulfill its purpose and responsibilities as
required in ISSC charter.

Recommendation 2. We recommend that the Information Security Steering
Committee improve its risk management strategy at the organizational level for
assessing, responding to, and monitoring information security risk as required in the
Foreign Affairs Manual and the National Institute of Standards and Technology
Special Publication 800-39.

Recommendation 3. We recommend that the Chief Information Officer:

       	 Improve oversight of the security assessment and authorization process for
          the Department’s information systems, especially the OpenNet General
          Support System (GSS) and ClassNet GSS as required by the National
          Institute of Standards and Technology (NIST) (SP) 800-37.
       	 Improve existing procedures to ensure security authorization packages are
          updated every 3 years or when a significant change occurs or develop a
          risk-based approach for implementing a continuous monitoring strategy as
          required by NIST SP 800-37.
       	 Improve existing procedures to ensure Systems Security Plans and Systems
          Assessment Reports are updated as required to comply with the security
          baseline controls contained in NIST SP 800-53 (Revision 3).
       	 Perform annual security assessments of a subset of a system’s security
          controls as required by NIST SP 800-37.

Recommendation 4. We recommend that the Chief Information Officer expedite the
Information Resource Management, Operations, Enterprise Network Management and
Diplomatic Security, Security Infrastructure, Office of Computer Security process to
finalize and implement the elements within the Cyber Security Architecture draft target
architecture and initiative for end-to–end configuration management and take
immediate action to correct or mitigate the high risk vulnerabilities identified by the
vulnerability scanning as required by the Foreign Affairs Manual and Diplomatic
Security System Configuration Policy and Procedures.

Recommendation 5. We recommend that the Chief Information Officer and the
Bureau of Diplomatic Security ensure, for significant security responsibility (SSR)
training, that personnel designated as having SSR responsibilities receive the
appropriate training as required by the Information Assurance Training Plan.

Recommendation 6. We recommend that the Chief Information Officer implement,
for Security Awareness Training, automated methods to replace the current manual
process to track and enforce the Department of State security awareness policy and to
suspend a user’s access to the network if the user has not taken the Cyber Security

                                                36
                                       UNCLASSIFIED
                                        UNCLASSIFIED


Awareness course within the required timeframe as required by the Information
Assurance Training Plan.

Recommendation 7. We recommend that the Chief Information Officer:

       	 Implement a Plans of Action and Milestones (POA&M) tracking process
          for all ClassNet security weaknesses as required by Committee on National
          Security Systems Policy Number 22, Information Assurance Risk
          Management Policy for National Security Systems.
       	 Distribute the quarterly POA&M Grade Memorandums to the bureaus’ and
          offices’ senior management (executive director) as required by M-04-25,
          FY 2004 Reporting Instructions for the Federal Information Security
          Management Act.
       	 Ensure that the POA&M completion dates and the required resources for
          OpenNet corrective actions are updated as required by OMB Memorandum
          M-04-25.

Recommendation 8. We recommend that the Chief Information Officer (CIO) develop and
implement Department of State processes and procedures to resolve weaknesses in user accounts
to ensure that unnecessary network user accounts are promptly removed by the bureaus and
posts. Further, the CIO should develop and implement procedures to ensure that bureaus and
organizational unit administrators annually review and recertify access privileges of users so that
the number of guest, test, and temporary accounts are managed effectively as required by the
Foreign Affairs Manual 12 FAM 622 and 12 FAM 629.

Recommendation 9. We recommend that the Chief Information Officer (CIO) ensure
compliance with the account management process to make certain that user and administrator
accounts are created, modified, and deleted in a manner consistent with Department of State
policy. Further, the CIO needs to compare the terminated user listings provided by bureau and
post personnel officers with information contained in the active directory on a quarterly basis to
ensure that accounts for separated employees are removed timely, as required by NIST SP 800-
53, Revision 3, August 2009, Recommended Security Controls for Federal Information Systems
and Organizations, and the Foreign Affairs Manual (12 FAM 621.3).

Recommendation 10. We recommend that the Information Security Steering Committee
develop, document, and implement an enterprise-wide continuous monitoring strategy that
addresses framing risk, assessing risk, responding to risk, and monitoring risk, as required by
NIST SP 800-39, “Managing Information Security Risk.”

Recommendation 11. We recommend that the Chief Information Officer in accordance with the
requirements in NIST SP 800-39, Managing Information Security Risk:

       	 Implement a continuous monitoring strategy at the enterprise-wide level.

       	 Obtain and use scanning software to enable effective scans of non-
          Windows operating systems, databases, firewalls, routers, and switches.

                                                37
                                        UNCLASSIFIED
                                      UNCLASSIFIED



       	 Develop operating procedures to ensure the results are included in the Risk
          Scoring Program dashboard.

       	 Develop procedures to ensure that System Security Owners update the
          system security plans to include a continuous monitoring strategy to detail
          how system security controls are to be monitored.

Recommendation 12. We recommend that the Chief Information Officer, as required
by NIST SP 800-34, Revision 1, Contingency Planning Guide for Federal Information
Systems, take the following actions:

       	 Update the Continuity of Operations Communication Plan annually or
          when changes occur to the organization, network hardware, systems, and
          applications and, if necessary, after Continuity Testing.

       	 Perform an entity-wide Business Impact Analysis and develop a strategy to
          prioritize recovery of the critical assets within the Department of State.

       	 Update the section of the Foreign Affairs Manual that contains guidance
          and direction for development and implementation of Continuity of
          Operations Communication Plan.

Recommendation 13. We recommend that the Bureau of Administration, Office of
Emergency Management, in coordination with the Chief Information Officer, align the
Business Impact Analysis of the Primary Mission Essential Functions with the Bureau
of Information Resource Management’s Maximum Tolerable Downtime for the
network as required by NIST SP 800-34, Revision 1, Contingency Planning Guide for
Federal Information Systems.

Recommendation 14. As required by National Institute of Standards and Technology
(NIST) Special Publications (SP) 800-34, Revision 1, Contingency Planning Guide for
Federal Information Systems, and SP 800-53, Revision 3, Recommended Security
Controls for Federal Information Systems and Organizations, we recommend that the
Bureau of Information Resource Management, Office of Information Assurance, in
coordination with the bureaus and system owners, take the following actions:

       	 Document and maintain alternate site locations and procedures for
          accessing an alternate site.

       	 Develop and maintain contingency plans for all major applications and
          general support systems.

       	 Maintain and update recovery and restoration procedures for all
          applications and general support systems.

Recommendation 15. As required by National Institute of Standards and Technology
(NIST) Special Publications (SP) 800-34, Revision 1, Contingency Planning Guide for
                                               38
                                      UNCLASSIFIED
                                       UNCLASSIFIED


Federal Information Systems and SP 800-53, Revision 3, Recommended Security
Controls for Federal Information Systems and Organizations, we recommend that the
Chief Information Officer:

       	 Revise the Information Resource Management/ Information Assurance
          Contingency Plan Test Review checklist to address the following items:

                  o	 Recovery and damage assessment procedures

                  o	 Alternate recovery site details

                  o	 Back-up procedures

                  o	 Back-up test results for moderate- and high-impact systems

       	 Revise the Contingency Plan Policy to include an organization-defined
          frequency for backup testing.

       	 Revise the Foreign Affairs Manual to require system owners to report to
          IRM/IA on the test results and updates to the contingency plans.

Recommendation 16. We recommend that the Chief Information Officer in
accordance with the Foreign Affairs Manual (5 FAM 1065.3) and the National Institute
of Standards and Technology Special Publication 800-47, Security Guide for
Interconnecting Information Technology Systems, take the following actions:

       	 Ensure that the contractor oversight program complies with Office of Management
          and Budget, Federal Information Security Management Act, National Institute of
          Standards and Technology, and the Foreign Affairs Manual security policies,
          standards, and requirements for managing Contractor Owned Contractor Operated
          (COCO) systems; specifically, all security-related documentation for such systems
          should be retained.

       	 Implement a COCO system security program whereby COCOs are overseen by the
          Bureau of Information Resource Management/ Information Assurance.

Recommendation 17. We recommend that the Bureau of Diplomatic Security develop
and implement new and enhanced security requirements to coordinate security
activities for tracking all extensions (that is, contractor sites, other Government
agencies, and third-party vendors) to OpenNet and ClassNet as required by the Office
of Management and Budget Memorandum M-11-33, FY 2011 Reporting Instructions
for the Federal Information Security Management Act and Agency Privacy
Management.

Recommendation 18. We recommend that the Bureau of Diplomatic Security, in
coordination with the Bureau of Administration, establish procedures to identify the
total number of contractors who have access to Department of State systems, as

                                               39
                                       UNCLASSIFIED
                                     UNCLASSIFIED


required by the Office of Management and Budget Memorandum M-11-33, FY 2011
Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management.

Recommendation 19. We recommend that the Chief Information Officer, as required
by Office of Management and Budget (OMB) Memorandum M-11-33, FY 2011
Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, and OMB Circular No. A–11, Preparation, Submission,
and Execution of the Budget:

      	 Ensure that the Bureau of Information Resource Management/ Business
         Management and Planning track all obligations and expenditures for
         information technology security investments.

      	 Provide a summary of non-major investments that make up the information
         technology-Infrastructure and other major investments.

      	 Include the Unique Project Identifier in the Department of State’s Plans of
         Action and Milestones database.




                                              40
                                     UNCLASSIFIED
                                          UNCLASSIFIED



                  Appendix A. Objectives, Scope, and Methodology

       In order to fulfill its responsibilities related to the Federal Information Security
Management Act (FISMA), the Office of Inspector General (OIG) contracted with Williams,
Adley & Company, LLP (referred to as “we” in this appendix), an independent public
accountant, to evaluate the Department of State’s information security program and practices to
determine the effectiveness of such programs and practices for FY 2011.

        FISMA requires each Federal agency to develop, document, and implement an agency-
wide program to provide information security for the information systems that support the
operations and assets of the agency, including those provided or managed by another agency or
contractor or another source. To ensure the adequacy and effectiveness of these controls,
FISMA requires the agency inspector general or an independent external auditor to perform
annual reviews of the information security program and to report those results to the Office of
Management and Budget (OMB) and the Department of Homeland Security (DHS). DHS uses
this data to assist in oversight responsibilities and to prepare its annual report to Congress
regarding agency compliance with FISMA.

       We performed the evaluation in accordance with Generally Accepted Government
Auditing Standards (GAGAS), FISMA, OMB, and National Institute of Standards and
Technology (NIST) Special Publications (SP) guidance. GAGAS requires that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our evaluation objectives. We and OIG believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
evaluation objectives.

       We performed fieldwork from April through July 31, 2011. Our fieldwork was
completed before OMB Memorandum M-11-33,1 FY 2011 Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy Management, dated
September 14, 2011, was issued. This memorandum provided instructions for FY 2011 reporting
requirements. We reviewed the memorandum and evaluated its impact on our results but
determined that no changes were required to be made.




1
 OMB Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management
Act and Agency Privacy Management, dated September 14, 2011.
                                                    41
                                          UNCLASSIFIED
                                              UNCLASSIFIED

                                                 DRAFT


       We used the following laws, regulations, and policies to evaluate the adequacy of the
controls in place at the Department:

            OMB Memorandums M-02-01, M-04-04, M-06-19, M-10-15, and M-11-33. 2
            Department policies and procedures such as 5 FAM and 12 FAM. 3
            Federal laws, regulations, and standards such as FISMA, OMB Circular A-130,
             Appendix III,4 and OMB Circular No. A-11.5
            NIST Special Publications (SP), Federal Information Processing Standards (FIPS),
             other applicable NIST publications, and industry best practices.

      In our evaluation, we assessed the Department’s information security program policies,
procedures, and processes in the following areas:

           Risk management framework (formerly Certification & Accreditation)
	
           Security configuration management 

           Incident response and reporting 

           Security training 

           Plans of action and milestones (POA&M) 

           Remote access
	
           Account and identity management 

           Continuous monitoring 

           Contingency planning 

           Oversight of contractor systems
	
           Security architecture and capital planning 


        The evaluation covered the period of October 1, 2010, to September 30, 2011. During
the fieldwork, we took the following actions:

    	 Determined the extent to which the Department’s information security plans,
       programs, and practices complied with FISMA requirements; applicable Federal laws,
       regulations, and standards; relevant OMB Circular A-130, Appendix III, processes
       and reporting requirements; and NIST and FIPS requirements.

    	 Reviewed all relevant security programs and practices to report on the effectiveness of
       the Department’s agency-wide information security program in accordance with OMB’s
       annual FISMA reporting instructions. The evaluation approach addressed the reporting
       instructions from OMB Memorandum M-11-33.


2
  OMB Memorandum 02-01, Guidance for Preparing and Submitting Security Plans of Action and Milestones;

OMB Memorandum 04-04, E-Authentication Guidance for Federal Agencies; OMB Memorandum 06-19,
	
Reporting Incidents Involving Personally Identifiable Information and Incorporating the Cost for Security in Agency 

Information Technology Investments; OMB Memorandum 10-15, FY 2010 Reporting Instructions for the Federal 

Information Security Management Act and Agency Privacy Management; and M-11-33, respectively. 

3
  5 FAM, “Information Management” and 12 FAM, “Diplomatic Security”. 

4
  OMB Circular A-130 Revised Appendix III, “Security of Federal Automated Information Resources.”
	
5
  OMB Circular No. A–11, Preparation, Submission, and Execution of the Budget. 

                                                         42
                                              UNCLASSIFIED
                                   UNCLASSIFIED

                                      DRAFT


	 Assessed programs for monitoring of security policy and program compliance and
   responding to security events (that is, unauthorized changes detected by intrusion
   detection systems).

	 Performed testing of major systems at the discretion of OIG. We tested 30 systems
   for our sample. (See Appendix I.).

	 Assessed the adequacy of internal controls related to the areas reviewed. Control
   deficiencies identified during the review are reported in the report.

	 Evaluated the Department’s remedial action taken to address the previously reported
   Information Security Program control weaknesses identified in OIG’s report Review of
   Department of State Information Security Program (AUD/IT-11-07, Nov. 2010).




                                           43
                                   UNCLASSIFIED
                                       UNCLASSIFIED




    Appendix B. Followup of Recommendations From the FY 2010 FISMA 

                                 Report

       The evaluation team reviewed actions implemented by management to mitigate the
findings identified in the FY 2010 FISMA report. The current status of each of the
recommendations is as follows:

Recommendation 1. We recommend that the Chief Information Officer verify the Federal
Information Security Management Act systems inventory list to the Information Technology
Asset Baseline to ensure that all information technology systems are accurately accounted for.

2011 Status: Closed. We reviewed the population of the FY 2010 fourth quarter FISMA
inventory list and the population of the FY 2011 third quarter FISMA inventory list. We verified
all changes between the two populations within ITAB. The list was accurate and complete.

Recommendation 2. We recommend that the Chief Information Security Officer ensure that
systems operated by a contractor, including systems rated low cost and low impact, the security
authorization process, including completion of a risk assessment and implementation of
necessary security controls, and that security authorization packages are completed on a timely
basis.

2011 Status: This recommendation is partially closed. The systems rated low cost and low
impact that are operated by contractors are websites hosted on foreign Internet Service
Providers (ISPs). The Department cannot enforce FISMA/NIST requirements for websites hosted
on foreign ISPs, as FISMA and NIST are US law/standards. The evaluation found that security
authorization packages were not completed accurately and on a timely basis. It has become
Recommendation 3 (Finding A) in the FY 2011 report.

Recommendation 3. We recommend that the Chief Information Officer develop a process to
periodically update the resources recorded in the plans of action and milestones (POA&M) and
that it update, in the POA&Ms, those completion dates for corrective actions that have expired.

2011 Status: This is open and a repeat recommendation from the FY 2010 report. It has become
Recommendation 7 (Finding D) in the FY 2011 report

Recommendation 4. We recommend that the Chief Information Officer, the Foreign Service
Institute, and the Bureau of Diplomatic Security implement methods to enforce the security
awareness policy to suspend a user’s access if the user has not taken the Cyber Security
Awareness course within the required timeframe.

2011 Status: This is open and a repeat recommendation from the FY 2010 report. It has
become Recommendation 6 (Finding C) in the FY 2011report.




                                               44
                                       UNCLASSIFIED
                                       UNCLASSIFIED


Recommendation 5. We recommend that the Chief Information Officer, the Foreign Service
Institute, and the Bureau of Diplomatic Security complete the Department of State's
corrective action plan (which involves Active Directory, security awareness completion data,
and iPost) to enforce the security awareness policy to suspend a user’s access if the Cyber
Security Awareness course is not taken within the required timeframe.

2011 Status: This is open and a repeat recommendation from the FY 2010 report. It has
become Recommendation 6 (Finding C) in the FY 2011report.

Recommendation 6. We recommend that the Chief Information Officer and the Bureau of
Diplomatic Security define and identify personnel who have significant security
responsibilities and ensure that they receive the appropriate training. Also, the Student
Training Management System should be modified to capture other training systems, such as
those paid for by the Department of State, to meet continuing professional education
requirements.

2011 Status: Closed. In the evaluation we were able to identify the titles of personnel who
have significant security responsibilities in the IA Training Plan.

Recommendation 7. We recommend that the Chief Information Officer complete the end-to-
end configuration management initiative, including implementation of the standard operating
environment.

2011 Status: This is open and a repeat recommendation from the FY 2010 report. It has
become Recommendation 4 (Finding B) in the FY 2011 report.

Recommendation 8. We recommend that the Chief Information Officer:

Install an NIST approved encryption algorithm that controls access to support controls access
to OpenNet Everywhere (ONE), reconfigure the ONE session timeout setting to 20 minutes,
retain remote access authorization forms to show supervisory approval, and document the
necessary risk assessment to determine the electronic authentication level for ONE.

2011 Status: Closed. The evaluation assessed Global OpenNet (GO), the replacement for
ONE, and found the security controls were implemented in accordance with OMB and NIST.
Based on the electronic process from the implementation of GO, we have determined that the
electronic authorization forms requires supervisory and executive director approval before
the remote access user receives a FOB key.

Recommendation 9. We recommend that the Chief Information Officer enhance the Active
Directory account management automated tools to flag accounts that have not been used
within the past 60 days and ensure that all accounts are configured with passwords that expire
every 60 days.

2011 Status: This is open and a repeat recommendation from the FY 2010 report. It has
become Recommendation 8 (Finding E) in the FY 2011 report.

Recommendation 10. We recommend that the Chief Information Officer ensure that
                                               45
                                       UNCLASSIFIED
                                         UNCLASSIFIED


program managers and office managers annually review access privileges of users under their
supervision so that the number of guest, test, and temporary accounts and accounts that have
not been used is reduced.

2011 Status: This is open and a repeat recommendation from the FY 2010 report. It has
become Recommendation 8 (Finding E) in the FY 2011 report.

Recommendation 11. We recommend that the Bureau of Diplomatic Security implement
proper staff awareness through training and have shift supervisors, as part of the shift change
procedures, ensure that personally identifiable information data incidents are reported to the
U.S. Computer Emergency Response Team within the required 1-hour timeframe.

2011 Status: Closed. The evaluation found that Diplomatic Security ensures that personally
identifiable information data incidents are reported to US CERT within the required 1-hour
timeframe.

Recommendation 12. We recommend that the Chief Information Officer include, under its
continuous monitoring program scanning results for databases, firewalls, routers, and switches
and include the results in the Risk Scoring Program dashboard.

2011 Status: This is open and a repeat recommendation from the FY 2010 report. It has
become Recommendation 11 (Finding G) in the FY 2011 report.

Recommendation 13. We recommend that the Chief Information Officer identify the
secondary site for the State Messaging and Archive Retrieval Toolset (SMART) system and
complete development of the SMART’s system contingency plan.

2011 Status: This is open and a repeat recommendation from the FY 2010 report. It has
become Recommendation 14 (Finding I) in the FY 2011 report.

Recommendation 14. We recommend that the Bureau of Administration review all relevant
information technology and professional services contracts to ensure that they contain the
required Department of State Acquisition Regulations information security clauses.

2011 Status: Closed.

Recommendation 15. We recommend that the Bureau of Diplomatic Security, in coordination
with the Bureau of Administration, establish procedures to identify the total number of contractors
who have access to Department of State systems.

2011 Status: This is open and a repeat recommendation from the FY 2010 report. It has
become Recommendation 18 (Finding J) in the FY 2011 report.




                                                  46
                                         UNCLASSIFIED
                                               UNCLASSIFIED


             Appendix C. Systems With Invalid Authority To Operate
        As part of the security authorization testing, we requested the most recent authorities to
operate (ATOs) for the sample of 30 systems. The ATO is the final security authorization
decision from the designated authorizing official to the information system. Per National
Institute of Standards and Technology Special Publication 800-37,1 the authorization decision
document contains the following information: authorization decision, terms and conditions for
the authorization, and authorization termination date.

                          Table 1. Systems With Invalid Authority To Operate

                  Bureau           Name           Package         Type              FIPS
                   Name                             No.                         Categorization
                    EUR         EXTRANET           1140         UNCL                     L

                     IO            USEVI           2412         UNCL                     L

                    IRM             TEDS            593           CL                     H

                    IRM           WINAD             633         UNCL                     M

                    IRM             TDS             719           CL                     H

                    IRM          WebPASS            744         UNCL                     M

                    IRM          SMART-C           2744           CL                     H

                      L            IDMAS            647         UNCL                     H

                    IRM           OpenNet           633         UNCL                     M

                    IRM           ClassNet          631           CL                     H

                   Legend
                    Bureaus                                            System Classification and
                                                                       Categorization
                    EUR-Bureau of European Affairs                     CL- Classified Network
                    IO-Bureau of International Organization Affairs    UNCL- Unclassified Network
                    IRM- Bureau of Information Resource Management     H- High Impact
                    L- Office of the Legal Advisor                     M- Moderate Impact




1
 NIST SP 800-37, Guide for Applying the Risk Management Framework to Federal Information Systems, Feb
2010
                                                   47
                                               UNCLASSIFIED
                                          UNCLASSIFIED


         Appendix D. Systems With Outdated Security Baseline Controls
       In the evaluation, we assessed a sample of 30 systems (see Appendix I) to determine
whether the systems were in compliance with National Institute of Standards and Technology
(NIST) Special Publication (SP) 800-53 Revision 3, Recommended Security Controls for
Information Systems (August 2009) (last updated May 1, 2010). NIST SP 800-53 Revision 3
provides guidelines for selecting and specifying security controls (management, operational, and
technical) for information systems supporting the executive agencies of the Federal Government
to meet the requirements of FIPS 200, Minimum Security Requirements for Federal Information
and Information Systems.

       Table 1 lists the systems for which security controls have not been updated to comply
with NIST SP 800-53 Revision 3.1
            Table 1. Systems With Outdated Security Baseline Controls

    Sample #     Bureau         Name         Package       Type          FIPS           Compliance
                 Name                          No.                   Categorization       (Y/N)
       1           A            ILMS          830        UNCL             M                 N

       2           CA          IVAMS           97        UNCL               M                 N

       3           CA            FEP           344       UNCL               M                 N

       4           CA          PLOTS           346       UNCL               M                 N

       5           CA          CLASS           558       UNCL               H                 N

       6           CA            MIS           724       UNCL               M                 N

       7           CA           OPSS           898       UNCL               M                 N

       8           CA           PLMS          4547       UNCL               M                 N

       9            DS           CMS           424       UNCL               M                 N

       10           DS         SIMAS           798       UNCL               M                 N

       11           DS          IDMS          1000       UNCL               M                 N

       12          EUR       EXTRANE          1140       UNCL               L                 N
                                T


1
  OMB Memorandum M-11-33 FY 2011 FAQs states that agencies are expected to be in compliance with NIST
standards and guidelines within one year of the publication date unless otherwise directed by OMB.
                                                          48
                                          UNCLASSIFIED
                                                  UNCLASSIFIED



  13               HR                 GTS              843           UNCL                    M                      N

  14               IIP           CMS (IIP)             600           UNCL                    L                      N

  15                IO              USEVI             2412           UNCL                    L                      N

  16              IRM              WINAD               633           UNCL                    M                      N

  17              IRM            OPENNET               634           UNCL                    M                      N
                                 (Transport)
  18              IRM               TDS                719             CL                    H                      N

  19              IRM            WebPASS               744           UNCL                    M                      N

  20              IRM              SMART -            2743           UNCL                    M                      N
                                     SBU
  21              IRM               EDW               2747           UNCL                    M                      N

  22                 L             IDMAS               647           UNCL                    H                      N

  23             M/PRI                eCC              966           UNCL                    M                      N

  24              MED               eMED               299           UNCL                    M                      N


Legend
                                                        Bureaus

 A – Bureau of Administration                         IO-Bureau of International Organization Affairs
 CA – Bureau of Consular Affairs                      IRM- Bureau of Information Resource Management
 DS – Bureau of Diplomatic Security                   L- Office of the Legal Advisor
 EUR - Bureau of European Affairs                     M/PRI – Office of Management Policy, Rightsizing and Innovation
 HR – Bureau of Human Resources                       MED – Office of Medical Services
 IIP – Office of International Information Programs
                                      System Classification and Categorization

                  Classification                                              Categorization
 CL- Classified Network                               H- High Impact
 UNCL- Unclassified Network                           M- Moderate Impact
                                                      L – Low Impact




                                                             49
                                                  UNCLASSIFIED
                                              UNCLASSIFIED


                            Appendix E. Vulnerability Assessment
        As part of the evaluation, we requested that the Bureau of Diplomatic Security, Security
Infrastructure Directorate, Office of Computer Security (DS/SI/CS), execute vulnerability scans
on a sample of 16 systems during the period August 1 to September 1, 2011. A total of 472
hosts1 from the 16 systems were active and tested. DS/SI/CS is responsible for performing
vulnerability scans on the Department’s systems as part of its security assessment duties. As part
of the Department’s continuous monitoring program, DS stores the vulnerability scans in a
database for iPost. iPost subsequently retrieves the vulnerability scan results and analyzes the
results for the risk scoring program. For the systems tested, we reviewed the vulnerability scan
configurations, analyzed the results, and summarized the results. The weaknesses we identified
are summarized as follows:

             A. Systems, operating systems, and applications with critical system and security
                patches which had not been applied.
             B. Systems that did not meet the standards set forth in the System Configuration
                Policy and Procedures.
             C. Systems that allowed access to system resources via anonymous logins and
                passwords, default credentials, and unsecured access points.

        The risk ratings are defined as follows:

        	 High Risk - Exploitation of the vulnerability discovered on the system can directly
           lead to an attacker gaining privileged access (for example, an administrator or a, root
           accounts) to the machine over a remote connection. Examples are: IIS Remote Data
           Services, remote procedure call automount daemon (RPC Automountd).
        	 Medium Risk - The vulnerability discovered on the system can lead directly to an
           attacker gaining non-privileged access (for example, standard user) to the machine
           over a remote connection. Examples are: Coldfusion viewexample.cfm and, Open
           and accessible NetBIOS ports.
        	 Low Risk - The vulnerability discovered on the system provides enticement data to
           the attacker that may be used to launch a more informed attack against the target
           environment. In addition, the vulnerability may indirectly lead to an attacker’s
           gaining some form of access to the machine over a remote connection.




1
  A host is computer that is connected to a Transmission Control Protocol/Internet Protocol (TCP/IP) network,
including the Internet. Each host had a unique IP address.

                                                        50
                                              UNCLASSIFIED
                                       UNCLASSIFIED

A. Vulnerabilities and Unpatched Systems

       For the 16 systems tested, the total number of high, medium, and low risk
vulnerabilities identified during vulnerability analyses are shown in Table 1.

                       Table 1. Host Vulnerabilities By Risk Rating

No.   System Name       Active Hosts       Number of High      Number of            Number of
                       (Number of IP           Risk           Medium Risk            Low Risk
                         Addresses)        Vulnerabilities    Vulnerabilities      Vulnerabilities
 1        FEP                6/6                214                269                   45
 2      IAVMS              11/13                237                265                   58
 3       OPSS                4/9                 87                143                   28
 4      PLOTS                2/2                 25                 58                    9
 5        FSA               9/13                175                203                  56
 6       EDW                 9/9                153                269                  56
 7     WebPASS              2/11                 27                 40                   14
 8       EMED                7/9                228                300                   48
 9      CLASS              12/12                 71                315                  75
10       ILMS             163/512              3,193              2,818                 702
11        MIS                4/4                 93                125                  28
12       PLMS              10/10                313                454                   75
13       IPMS             182/258              2,274              4,870                1,265
14     OPENNET             10/10                175                390                  103
15      WINAD              10/10                  9                 36                   9
16     Smart-SBU           31/59               1,246              1,099                 229
      TOTAL               472/947              8,520             11,654                2,800




                                               51
                                       UNCLASSIFIED
                                       UNCLASSIFIED

       For the 16 systems tested, the total number of patches that were not installed on
the hosts, by system, are shown in Table 2.
                (b) (5)




       For the 16 systems tested, we performed an analysis of the Common Vulnerabilities and
Exposures (CVEs) and risk ratings. CVE is a dictionary of publicly known information security
vulnerabilities and exposures. The number of weaknesses identified are shown in Table 3, and
the number of vulnerabilities are shown in Table 4.

Table 3. Number of Vulnerabilities Identified by CVE and Risk Rating
                          CVE ID No.   Risk Rating        Number of
                                                         Vulnerabilities
                                                           Identified
                          CVE-2008       High                 613
                          CVE-2008      Medium               1,559
                          CVE-2009       High                1,109
                          CVE-2009      Medium               1,466
                          CVE-2010       High                1,529
                          CVE-2010      Medium               1,797
                          CVE-2011       High                3,002
                          CVE-2011      Medium               1,261




                                                 52
                                       UNCLASSIFIED
                                                 UNCLASSIFIED



                        Table 4. Total Number of Vulnerabilities by CVE and Year




          B. Security Configuration Compliance

             We also compared a sample of mandatory DS configuration settings with what is being
          checked and identified the weaknesses shown in Table 5.
(b) (5)




                                                       53
	
                                                 UNCLASSIFIED
                                               UNCLASSIFIED


      SMART-SBU         Windows File Permissions for   For file: %systemdrive%\AUTOEXEC.BAT The following
                        file:                          accounts should have the specified permissions: Account
      MSSMTPDFBE01      %systemdrive%\AUTOEXEC         Sid = S-1-5-32-544; name = Administrators; permissions =
                        .BAT                           XRQNWATBUDEPO(full) Account Sid = S-1-5-18; name
                                                       = System; permissions = XRQNWATBUDEPO(full)
                                                       Account Sid = S-1-5-32-545; name = Users; permissions =
                                                       XRQNE(read and execute) No other accounts should have
                                                       any rights.


      C. Anonymous Logins and Passwords

               Although the logical access weaknesses identified in Table 6 are not categorized as high
      risk, the default passwords were not in accordance with FAM policies.
(b) (5)




                                                        54
                                               UNCLASSIFIED
                                                  UNCLASSIFIED


              Appendix F. Systems Without Annual Backup Plan Testing
       As part of the contingency plan testing, we requested annual backup test results for the
sample of 25 systems. According to Department of State officials, each system owner is
responsible for testing the backup media to verify media reliability and information integrity.

        The systems for which system owners did not provide documentation of annual backup
tests are shown in Table 1.


                       Table 1. Systems Without Annual Backup Plan Testing


                                                 Package                              FIPS         Annual Backup
Sample #          Bureau           Name            No.             Type           Categorization      Testing
   1                 A             ILMS            830             UNCL                M                N
   2                 A            S-ILMS          2716              CL                 H                N
   3                CA            IVAMS             97             UNCL                M                N
   4                CA              FEP            344             UNCL                M                N
   5                CA            PLOTS            346             UNCL                M                N
   6                CA             PLMS           4547             UNCL                M                N
   7                CA              MIS            724             UNCL                M                N
   8                DS              CMS            424             UNCL                M                N
   9                HR              GTS            843             UNCL                M                N
  10               IRM              TDS            719              CL                 H                N
  11               IRM           WebPASS           744             UNCL                M                N
  12               IRM           SMART -          2743             UNCL                M                N
                                    SBU
   13              IRM           SMART-             2744              CL                  H             N
                                     C
   14               L             IDMAS             647            UNCL                   H             N
   15              MED             eMED             299            UNCL                   M             N

 Legend
                                          Bureaus

   A – Bureau of Administration          IRM- Bureau of Information Resource Management
   CA – Bureau of Consular Affairs       L- Office of the Legal Advisor
   DS – Bureau of Diplomatic Security    MED – Office of Medical Services
   HR – Bureau of Human Resources
                           System Classification and Categorization

              Classification                              Categorization
   CL- Classified Network                H- High Impact
   UNCL- Unclassified Network            M- Moderate Impact




                                                              55
                                                  UNCLASSIFIED
                                     UNCLASSIFIED


                 Appendix G. Servers Without Critical Patches

     The 17 servers that did not have critical patches installed are shown in Table 1.
(b) (5)




                                              56
	
                                     UNCLASSIFIED
                                           UNCLASSIFIED



    Appendix H. Summary of Department of State Continuous Monitoring
               Controls Compliance With Federal Guidance
       Deficiencies noted in the Department of State’s continuous monitoring controls
in accordance with Office of Management and Budget Memorandum M-11-33, FY
2011 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, dated September 14, 2011, and National Institute of
Standards and Technology Special Publication 800-37, Guide for Applying the Risk
Management Framework to Federal Information Systems, Revision 1, dated February
2010, are shown in Table 1.
      Table 1. Analysis of Continuous Monitoring Compliance With Federal
Guidance

Regulation Source   Continuous Monitoring           Implemented   Comment
                    Components
OMB                                                 Partially     Control deficiencies were noted in the
Memorandum 11-      Continuous monitoring           Implemented   following sections:
33                  programs and strategies
                    should address:                                      Risk Management (Finding
                    (i) the effectiveness of                              A)
                    deployed security controls;                          Configuration Management
                                                                          (Finding B)
                                                                         Plans of Actions and
                                                                          Milestones (Finding D)

OMB                 (ii) changes to information     Partially     Several control deficiencies were
Memorandum 11-      systems and the                 Implemented   noted in configuration management.
33                  environments in which those                   (Finding B)
                    systems operate; and.




OMB                 (iii) compliance to federal     Partially     Based upon the control deficiencies
Memorandum 11-      legislation, directives,        Implemented   identified in this report, the
33                  policies, standards, and                      Department is not in compliance with
                    guidance with regard to                       FISMA regulations.
                    information security and risk
                    management. Agencies will
                    be required to report the
                    security state of their
                    information systems and
                    results of their ongoing
                    authorizations through
                    CyberScope in accordance
                    with the data feeds defined
                    by DHS.




                                                    57
                                           UNCLASSIFIED
                                          UNCLASSIFIED


                 Configuration management       Partially     Several control deficiencies were
                 and control processes for      Implemented   noted in configuration management.
NIST SP 800-37   organizational information                   (Finding B)
                 systems




                                                Implemented   No findings noted.
                 To assess the Security
                 Impact Changes
                 To assess the subset of        Partially     Three systems [Content Management
                 management, technical, and     Implemented   System (CMS), WebPASS, and
                 operational controls                         SMART-C] did not have an annual
                                                              assessment of security controls
                                                              performed as part of its continuous
                                                              monitoring of annual controls.
                                                              (Finding A)

                 Security status reporting to   Partially     The Department’s Plans of Action
                 appropriate organizational     Implemented   and Milestones (POA&M) process is
                 officials                                    not fully and effectively implemented
                                                              and the program is not compliant with
                                                              FISMA and OMB requirements.

                                                              The Department has not implemented
                                                              a POA&M process to address and
NIST SP 800-37
                                                              resolve security weaknesses identified
                                                              on ClassNet GSS.

                                                              In addition, the evaluation found the
                                                              Department has not implemented
                                                              effective corrective actions to address
                                                              the POA&M control weaknesses
                                                              within the OpenNet GSS identified in
                                                              the FY 2010 report Review of the
                                                              Information Security Program at the
                                                              Department of State. (Finding D)
                 Active involvement by          Partially     For authority to operate (ATO),
                 authorizing officials in the   Implemented   which provides proof that an
                 ongoing management of                        authorizing official approved a
                 information system-related                   system to operate, the evaluation
                 security risks.                              found that nine of 30 systems tested
                                                              did not have a full security
                                                              assessment and authorization
                                                              performed. (Finding A)




                                                58
                                          UNCLASSIFIED
                                      UNCLASSIFIED


 Appendix I. Sample Selection of Information Systems Listed in Information 

          Technology Asset Baseline Used for FY 2011 Evaluation 

      The sample selection described in the title of this appendix is shown as follows:

         Name                 Acronym                Bureau               Classification   Categorization

Integrated Logistics           ILMS        Bureau of Administration       Unclassified       Moderate
Management System
Secure-Integrated             S-ILMS       Bureau of Administration        Classified          High
Logistics Management
System
Immigrant Visa Allocation     IVAMS        Bureau of Consular Affairs     Unclassified       Moderate
Management System
Front End Processor            FEP         Bureau of Consular Affairs     Unclassified       Moderate
Passport Lookout              PLOTS        Bureau of Consular Affairs     Unclassified       Moderate
Tracking System
Consular Lookout &            CLASS        Bureau of Consular Affairs     Unclassified         High
Support System
Management Information          MIS        Bureau of Consular Affairs     Unclassified       Moderate
System
Online Passport Status         OPSS        Bureau of Consular Affairs     Unclassified       Moderate
Service
Passport Lockbox               PLMS        Bureau of Consular Affairs     Unclassified       Moderate
Manifest Search
Case Management System          CMS   Bureau of Diplomatic                Unclassified       Moderate
                                      Security
Security Incident            SIMAS    Bureau of Diplomatic                Unclassified       Moderate
Management and Analysis               Security
Identity Management           IDMS    Bureau of Diplomatic                Unclassified       Moderate
System                                Security
FSA Eurasia Database           FSA    Bureau of Educational and           Unclassified       Moderate
                                      Cultural Affairs
extranet.usembassy.it      EXTRANET Bureau of European and                Unclassified         Low
                                      Eurasian Affairs
Gateway to State               GTS    Bureau of Human                     Unclassified       Moderate
                                      Resources
Integrated Personnel          IPMS    Bureau of Human                     Unclassified       Moderate
Management System                     Resources
Content Management          CMS (IIP) Bureau of International             Unclassified         Low
System                                Information Programs
United States Embassy        USEVI    Bureau of International             Unclassified         Low
Vienna Internet website               Organizations
COMSEC Accounting            CARDS    Bureau of Information                Classified        Moderate
Reporting and Distribution            Resource Management
                                              59
                                      UNCLASSIFIED
                                   UNCLASSIFIED



System
Telegram Distribution       TEDS      Bureau of Information         Classified     High
System                                Resource Management
Windows Active             WINAD      Bureau of Information        Unclassified   Moderate
Directory                             Resource Management
OpenNet Plus Transport     OPENNET    Bureau of Information        Unclassified   Moderate
GSS                                   Resource Management
Telegram Delivery System     TDS      Bureau of Information         Classified     High
                                      Resource Management
Web Post Administrative    WebPASS    Bureau of Information        Unclassified   Moderate
Software Suite Explorer               Resource Management
SMART Core Messaging-      SMART -    Bureau of Information        Unclassified   Moderate
Unclassified                 SBU      Resource Management
SMART Core Messaging-      SMART-C    Bureau of Information         Classified     High
Classified                            Resource Management
Enterprise Data             EDW       Bureau of Information        Unclassified   Moderate
Warehouse                             Resource Management
Integrated Document         IDMAS     Office of the Legal          Unclassified    High
Management & Analysis                 Advisor
System
eCountryClearance            eCC      Office of Management         Unclassified   Moderate
                                      Policy, Rightsizing and
                                      Innovation
Electronic Medical          eMED      Office of Medical Services   Unclassified   Moderate
Records System




                                        60
                                   UNCLASSIFIED
                               UNCLASSIFIED



           Appendix J. Department of State Response




                                                      United States Department or Stale

                                                      Clrj~/In/ormatjon Offiur
                                                      Information Rt!Sollt'U Manug~~nt

                                                      Washington, D.C 10511}.6) II

                                                  November 2,2011

UN L A IFIED
MEM ORANDUM

TO:         OIG - Mr. Harold W. Geisel

FROM:       IRM - Susan H. Swart   .,,£J
SU BJ ECT: Departme nt Response to Draft Report on Evaluation of Department of
           State Information Security Program

REF:        OIG Me mo Dated Oct. 26, 20 11 Subject: Draft Report on Eval uation
            of De partment of State Information Security Program

Thank you for the opportunity to provide comments on the draft ""Report on
Evaluation of Department of State Inrormation Security Program Report for 2011"
(010 FISMA report). Our response to the annual 0 10 FISMA report is attached
and was coordinated with the Bureau of Diplomatic Security, Bureau of
Administ ration, Bureau of Human Resources, and the Foreign Service Inst itute.
Please consider this a consolidated reply to you r request.




                                 UNCLASS IFIEP




                                           61
	
                               UNCLASSIFIED
                                        UNCLASSIFIED





                                           UNCLASSIFIED




                Department Response to Draft Report on
     Evaluation of Department of State Infonnation Security Program
Before addressing individual recommendations, the Department would like to provide a few
overview secti ons to addre~s scveral th emes thai run thru this year's OIG I'ISM A report _

1) Use of Continuous monitoring to repla{'(' traditional Certification and Author;ution:
The FISMA FY20 11 reporting instructions (OMB mcmorandum 11-33) explicitly offer the
Executive Departments and Agcncies th e authority to substitute an appropriate risk-based
continuous monitoring program in lieu of the formerly required reauthori zations that had
previously been required evcry three yeaTS _ In relevant part, the instructions state:

         Is a 8N:urity n-anthorization still rt<lnir'ed eWI·y three yearll 01· when an informati()n
         SYlItrm has undr rgone significant change as stated in OMR Circular A-130? No _ Rathcr
         than enforoing a static, three-year reauthorization process, agencies are expected to conduct
         ongoing authorization. of information 'Y"t~m. through th~ impkm(;ntation of (;ontinuou.
         moni toring programs ... Continuous monitoring programs thus fulfill th(; thllOe-ycar so;c urity
         reauthorization requirement, so a sqmrat(; re-authorization process is not neoessary_ 1

The Department chose to implement OMD"s guidance and instructions and base ongoing
reauthorization of the Department's networks (not applications) on continuous monitoring. TIle
OIG doe~ not concur with the Department ·s acceptance of this risk. and the FlSM A reporting
instructions provide instructions for addressing such disagreements_ In re levant part, the
instructions state:

         Who is responsihle for deciding the acceptahle level of risk (e.g., the C'O, pl"Ogmm
         officials and system owners, 01· the IG)? What if they (The CIO and th e OIGI
         disagree? The agenci head ultimately is responsible for decidin g the acceptable level of
         risk for their agency_

2) Compliance ,"s. Risk_nased Anahsis: Under th e FISMA FY20 II reporting instructions,
both the Department and the OIG are required to take a risk-based approach. Applying this
principle, compli.Ulce of guide line~ ~ho uld only be perfoillled when the ri~k of non-compliance      i~
assessed_ Moreover, simple compliance may not he enough to address risk _

'the report f'lUl ~ the Department'~ ri~k scoring program bec'lU~e it does not currentl y include
routers and switches. However, th e Department did scan its routers and switches to assess
vulnerabilities) and fOWld a risk score of 7,476 points assoc iated with routers and switches
comparoo to a ~core of 160,000,000 aCTO~S all device~ originally sca]Uled in 2008. "Ihe
vulnerabi lities posed by routers and switches represent less than 0.005% of total vulnerabilities.

'OMB M-1l-33. FAQ28.
' OM6 M-1l-33, FAQ 1$.
, CVEs

                                           UNC LASS IFIED




                                                    62
	
                                        UNCLASSIFIED

                                           UNCLASSIFIED





                                               UNCLASSIFIED
                                                         2

If the height of the Washington Monument 4 represented all the risk scored by State's
Vulnerability Scanner in iPost as of the summer of2008, the amount represented by the
vulnerabilities on routers and switches today is less than 0.34 inches. While that 0.34 inches is a
risk, it is minuscule compared to the metaphorically equivalent of 555 feet of original risk.

Applying the risk-based principles, the Department fully intends to perform a risk-based analysis
and prioritize the OIG findings and address the corresponding recommendations accordingly.
The Department, again applying the risk-based approach, is obligated to address higher risk
issues before addressing OIG findings and recommendations.

3) Completeness vs. Timeliness: The traditional FISMA three-year reauthorization process
focuses on "completeness" oftesting and remediation, largely ignoring timeliness. Likewise,
this report focuses on the completeness of the Department's continuous monitoring program,
implying the program is inadequate and ineffective if it is not 100% complete.

A current Massachusetts Institute of Technology (MIT) Lincoln Labs study quantifies the
tradeoff between completeness and timeliness in reducing security risk on a network. The study
shows that a regimen of complete testing annually5 is only as effective at reducing risk as testing
17% of controls every 2 months. 6 Because the Department's continuous monitoring program is
both 3-4 times more complete and 20 times timelier than the second case above 7, one can
reasonably conclude it is more effective than a complete but slow process such as the traditional
FISMA three-year authorization process. Timeliness is important because it is commensurate
with those who attack our networks - at Internet speed. To prevent attacks, we must be faster at
removing weaknesses than they are at exploiting them.

The Department has worked tirelessly to increase the timeliness of detection and remediation of
the highest priority weaknesses, which is consistent with both the principles of continuous
monitoring and a risk-based approach.

4) Accuracy of Findings: In many cases, the Department found the OIG findings significantly
overstate the quantitative size of problems. As a result, the Department's management responses
state we must first accurately assess the size and nature of the assumed problem, before
prioritizing and selecting a management approach.

One example of inaccuracy is located in section E of the draft OIG report. In this section, the
OIG documented account types requiring a business justification. However, the OIG did not
provide evidence that such a justification was missing. The Department evaluated a small
scientifically valid sample of the aforementioned accounts and checked them for a business


' According to the National Park Service, http://www.nps.gov!wamo!index.htm. the Washington Monument is 555
feet and 51/8 inches tall.
' This is more timely than complete testing of all 800-53 controls every three years, as formerly required by FISMA,
and which we assume the DIG would accept as compliant.
• This example is based on several assumptions that do apply to State. However they are not addressed here to
make this description suitably concise. The Department would be happy to rev iew this study with the auditors.
, And 300 times more timely than meeting the former FISMA requirements.




                                                        63
	
                                           UNCLASSIFIED

                                              UNCLASSIFIED





                                                  UNCLASSIFIED
                                                       3

justification. The vast majority had a valid business justification. As such, the OIG draft report
overstates the extent of the problem by 380% on one network, and by 1,100% on another.

5) Conclusions: The Department disagrees with the OIG on whether continuous monitoring, as
currently conducted, produces lower risk than a traditional C&A program, and on the relative
importance of completeness and compliance vs. timeliness and risk-based prioritization. Having
carefully considered these factors, the Department is convinced its continuous monitoring
program, which is 300 times more timely than traditional three-year reauthorizations, produces
                                 8
significantly lower security risk on its networks.

6) Management Responses to Recommendations: The remainder of this response provides
specific management responses to each of the draft OIG recommendations in the context of the
overall comments provided above.

Recommendation 1: {Section A} We recommend that the Information Security Steering
Committee (ISSC) meet on a monthly basis to fulfill its purpose and responsibilities as required
in IS SC charter.

       Department Response to Recommendation 1:

               The Department does not agree that the lack of meetings poses any material risk to the
               security of the Department. Moreover, there is no requirement that this voluntarily
               created internal group meet with recurring frequency. The Department exercised its valid
               authoritl to conclude there was no need to meet and believes there is no basis for OIG to
               substitute its own judgment. The ISSC chairpersons will survey the ISSC membership on
               reasons to meet, and conduct meetings accordingly.

Recommendation 2: {Section A} We recommend that the Information Security Steering
Committee improve its risk management strategy at the organizational level for assessing,
responding to, and monitoring information security risk as required in the Foreign Affairs
Manual and the National Institute of Standards and Technology Special Publication 800-39.

       Department Response to Recommendation 2:

               The Department agrees that some increased level of documentation in this area could be
               beneficial. The Department notes that under the OMB instructions guidance, it is the
               Department's judgment that shall decide how much documentation is needed to reduce
               risk. 10 The Department's Designated Authorizing Authority (DAA) will determine the
               level of documentation adequate to manage risk.




8   Neither produce zero risk, and achieving zero risk is not foreseeable.
9   0MB M-1l-33
lOOp.   cit.




                                                           64
	
                                              UNCLASSIFIED

                                           UNCLASSIFIED





                                               UNCLASSIFIED
                                                         4

Recommendation 3: {Section A} We recommend that the Chief Information Officer:
   • Improve oversight of the security assessment and authorization process for the
     Department's information systems, especially the OpenNet General Support System
     (GSS) and ClassNet GSS as required by the National Institute of Standards and
     Technology (NIST) (SP) 800-37.
   • Improve existing procedures to ensure security authorization packages are updated every
     3 years or when a significant change occurs or develop a risk-based approach for
     implementing a continuous monitoring strategy as required by NIST SP 800-37.
   • Improve existing procedures to ensure Systems Security Plans and Systems Assessment
     Reports are updated as required to comply with the security baseline controls contained
     in NIST SP 800-53 (Revision 3).
   • Perform annual security assessments of a subset of a system's security controls as
     required by NIST SP 800-37.

       Department Response to Recommendation 3:

            With regard to bullet 2, we note that FISMA FY2011 reporting instructions explicitly
            removed any such requirement. We quote:

           Is a security reauthorization still required every 3 years or when an information
           system has undergone significant change as stated in OMB Circular A-130? No.
           Rather than enforcing a static, three-year reauthorization process, agencies are expected
           to conduct ongoing authorizations of information systems through the implementation of
           continuous monitoring programs. [1] (emphasis in original)

            Based on this instruction, the Department does not agree with the recommendation in
            bullet l.

            With regard to bullet 3, the new NIST SP 800-53 guidance was not fully implemented[2]
            until June 2010, and thus compliance was not required for C&As starting before June
            2011. All Department C&As commencing after June 2011 will comply with the new
            version ofNIST 800-53/53A. The Department's C&A Toolkit has been fully updated to
            implement this change. Applying a risk-based approach, the Department does not judge
            it necessary to retroactively adjust prior C&As to meet this new standard. [3]

            With regard to bullet 4, the Department performs such annual testing on all its systems,
            except in rare cases that are vigorously pursued.

Recommendation 4: {Section B} We recommend that the Chief Information Officer expedite
the Information Resource Management, Operations, Enterprise Network Management and
Diplomatic Security, Security Infrastructure, Office of Computer Security process to finalize and
implement the elements within the Cyber Security Architecture draft target architecture and

[1]   OMB M-1l-33, FAQ 28.
[2]   A new NIST 800-53A was needed to implement the new 800-53, and was not published until June 2010.
[3]   Authority is OMB M-1l-33, FAQ 15.




                                                       65
	
                                           UNCLASSIFIED

                                           UNCLASSIFIED





                                               UNCLASSIFIED
                                                    5

initiative for end-to-end configuration management and take immediate action to correct or
mitigate the high risk vulnerabilities identified by the vulnerability scanning as required by the
Foreign Affairs Manual and Diplomatic Security System Configuration Policy and Procedures.

       Department Response to Recommendation 4:

           The Department notes this recommendation is based on three findings:
              • Some "critical" patches were not installed.
              • iPost failed to report 100% of required configuration settings.
              • Less than 100% of all vulnerabilities are mitigated.

           In general, the OIG is using a criterion focused upon completeness, and overlooking
           timeliness. This is a "compliance-based" approach not consistent with FY20ll FISMA
           reporting instructions that require both the Department and OIG to assess risk and make
           judgments of how to best achieve security.

           More specifically, the OIG asserts the Department is not checking 100% of configuration
           settings within the "required" three-year timeframe. Utilizing a risk-based approach, the
           Department is applying the analysis conducted by MIT Lincoln Labs examining the
           tradeoff between completeness and timeliness of testing. This study shows the following
           two conditions have approximately equal risk: 11

                      100% completeness every year ~ 17% completeness every two months

           Because the Department checks nearly 90% of configuration settings every three days,
           the Department's risk is significantly lower than the traditional C&A requirement (100%
           completeness every three years). In this case, evidence shows timeliness trumps
           completeness in lowering risk.

           The Department examined each of the three OIG findings and determined the findings do
           not reflect a material increase of risk for reasons documented elsewhere. 12 The
           Department will continue to assess risk in these areas, and if a material risk to the
           security of the Department is found, the Department will take appropriate steps.

Recommendation 5: {Section C} We recommend that the Chief Information Officer and the
Bureau of Diplomatic Security ensure, for significant security responsibility (SSR) training, that
personnel designated as having SSR responsibilities receive the appropriate training in
accordance with the Information Assurance Training Plan.




11   Given other assumptions applicable to the Department.
12   Available for auditor inspection.




                                                       66
	
                                           UNCLASSIFIED

                                            UNCLASSIFIED





                                                 UNCLASSIFIED
                                                            6

     Department Response to Recommendation 5:

         The Department agrees with this recommendation because the condition of not tracking
         (individually) those who need role-based training creates undue risk for the Department.
         The Department will develop a method of tracking of who needs and who has received
         role-based training; comparable to what is available for awareness training (including risk
         scoring in iPost).

Recommendation 6: {Section C} We recommend that the Chief Information Officer
implement, for Security Awareness Training, automated methods to replace the current manual
process to track and enforce the Department of State security awareness policy and to suspend a
user's access to the network if the user has not taken the Cyber Security Awareness course
within the required timeframe in accordance with the Information Assurance Training Plan.

     Department Response to Recommendation 6:

         The Department has conducted a preliminary study of compliance with annual
         completion of the PS-800 training course. These preliminary findings show nearly 100%
         of those who require training receive training within 30 days of the due date. The
         Department does not consider this level of non-compliance to be a material risk to the
         security of the Department.

         This is especially true, considering there are several other sources of awareness training
         including the daily awareness program at login, as well as weekly and quarterly sources.

         The OIG proposal to automatically suspend account access (without human intervention)
         has a high risk of creating serious denial-of-service issues and as such, itself poses risks
         to the security of the Department.

         The Department will conduct a complete assessment of compliance in this area and take
         appropriate action if a material level of non-compliance is indicated.

Recommendation 7: {Section D} We recommend that the Chief Information Officer:
   • Implement a Plan of Action and Milestones (POA&M) tracking process for all ClassNet
     security weaknesses as required by Committee on National Security Systems Policy
     Number 22, Information Assurance Risk Management Policy for National Security
     Systems. 13
   • Distribute the quarterly POA&M Grade Memorandums to the bureaus' and offices'
     senior management (executive director) as required by M-04-25, FY 2004 Reporting
     Instructions for the Federal Information Security Management Act.

13   With regard to POA&Ms this source states "Require a formal Enterprise-level Plan of Actions and Milestones
(POA&M) containing: (i) systemic information system and organizational security weaknesses and deficiencies; (ii)
risks relating to the identified weaknesses and deficiencies requiring further mitigation; and (iii) specific actions to
mitigate identified   risks." The Department believes that our POA&M process for ClassNet meets these
requirements in all material regards.




                                                          67
	
                                            UNCLASSIFIED

                                           UNCLASSIFIED





                                               UNCLASSIFIED
                                                    7

       •   Ensure that the POA&M completion dates and the required resources for OpenNet
           corrective actions are updated as required by OMB Memorandum M-04-2S.

       Department Response to Recommendation 7:

           The Department has examined the detailed findings supporting the summary statements
           in this draft document. The Department concludes that the problems identified are not
           material (or are now being addressed) for the following reasons:
               • The Department has a compliant process for tracking POA&M items on ClassNet.
               • The Department has started distributing quarterly grades (effective QI-FY2012)
                   to executive officers, as recommended.
               • Quarterly updates to POA&M data are not warranted, unless there has been a
                    change of status. The grading covered under the prior bullet addresses this issue.

           The Department notes the iPost system performs many of the functions of a POA&M
           system at a level of timeliness and detail that the traditional POA&M approach cannot
           achieve. Given the MIT Lincoln Labs findings on the trade-off between completeness
           and timeliness discussed previously, the Department concludes that deficiencies in the
           traditional POA&M system are not a material risk to the security of the Department,
           given iPost as a compensating control. 14

Recommendation 8: {Section E} We recommend that the Chief Information Officer (CIO)
develop and implement Department of State processes and procedures to resolve weaknesses in
user accounts to ensure that unnecessary network user accounts are promptly removed by the
bureaus and posts. Further, the CIO should develop and implement procedures to ensure that
bureaus and organizational unit administrators annually review and recertify access privileges of
users so that the number of guest, test, and temporary accounts are managed effectively as
required by the Foreign Affairs Manual 12 FAM 622 and 12 FAM 629.

       Department Response to Recommendation 8:

           The Department notes that operational considerations require some accounts to be set
           "not to expire" and such accounts are scored and noted in iPost. The Department
           considers this process appropriate.

           The Department conducted a preliminary investigation of the accounts identified as
           deficient by the OIG using a random sample of accounts in each of the remaining
           categories found. The Department's study concluded the OIG had overestimated the
           level of deficiency by 380% on ClassNet and by 1,100% on OpenNet. The Department
           cannot find a single incident in FY2011 where one of these accounts was compromised.
           In part, this is because of compensating controls: for example, unauthorized access via
           guessing of passwords is significantly mitigated by automatically locking accounts after
           three bad passwords are offered.



14   Authority to make this judgment is provided by OMB M-1l-33, FAQ 15.




                                                       68
	
                                           UNCLASSIFIED

                                     UNCLASSIFIED





                                         UNCLASSIFIED
                                              8

       The Department agrees there is a potential risk with these types of accounts. In
       December 20 II, the Department will commence scoring stale accounts in iPost. The
       Department will also conduct a more complete assessment of this problem and determine
       what prioritized mitigation actions are justified by the current level of risk.


Recommendation 9: {Section F} We recommend that the ChiefInformation Officer (CIO)
ensure compliance with the account management process to make certain that user and
administrator accounts are created, modified, and deleted in a manner consistent with
Department of State policy. Further, the CIO needs to compare the terminated user listings
provided by bureau and post personnel officers with information contained in the active directory
on a quarterly basis to ensure that accounts for separated employees are removed timely as
required by NIST SP 800-53, Revision 3, August 2009, Recommended Security Controls for
Federal Information Systems and Organizations and the Foreign Affairs Manual (12 FAM
62l.3).

   Department Response to Recommendation 9:

       The deactivation of accounts recommendation is related to Financial Audit findings under
       the title "Untimely Removal ofInactive or Separated Employees' User Accounts". The
       management response to the related financial audit findings address the deactivation of
       account issues raised above.

       The Department will investigate the other findings within six months to determine their
       scope and materiality to the security of the Department. This review will use reliable
       statistical methods, ensuring results may be projected to the population of all accounts
       from the review. Based upon this review, the Department will determine a risk-based and
       cost-effective solution to any issues identified. This solution may range from accepting
       the risk, to further corrective action.


Recommendation 10: {Section G} We recommend that the Information Security Steering
Committee develop, document, and implement an enterprise-wide continuous monitoring
strategy that addresses framing risk, assessing risk, responding to risk, and monitoring risk, as
required by NIST SP 800-39, "Managing Information Security Risk."

   Department Response to Recommendation 10:

       The Department agrees some increased level of documentation, as called for in
       recommendation 2, would be valuable.

Recommendation 11: {Section G} We recommend that the Chief Information Officer in
accordance with the requirements in NIST SP 800-39, "Managing Information Security Risk":
   • Implement a continuous monitoring strategy at the enterprise-wide level.
   • Obtain and use scanning software to enable effective scans of non-Windows operating
       systems, databases, firewalls, routers, and switches.




                                                69
	
                                     UNCLASSIFIED

                                    UNCLASSIFIED





                                       UNCLASSIFIED
                                                9

   •   Develop operating procedures to ensure the results are included in the Risk Scoring
       Program dashboard.
   •   Develop procedures to ensure that System Security Owners update the system security
       plans to include a continuous monitoring strategy to detail how system security controls
       are to be monitored.

   Department Response to Recommendation 11:

       Regarding bullet 1, the Department notes that implementation of an effective continuous
       monitoring strategy will require continuous improvement and thus never be completed.
       The Department's current continuous monitoring implementation is being copied as a
       model by both other government agencies and the private sector.

       Regarding bullet 2, the Department is already engaged in these efforts and will pursue
       them with an appropriate level of priority. Test scans of routers and switches show that if
       the height of the Washington Monument represented the total risk in place in the summer
       of2008, the risk of "uncovered" routers and switches would be less than 0.34 inches
       high. The Department will continue to prioritize such risks and expand the coverage of
       the risk scoring program.

       Regarding bullet 3, the Department will continue to expand coverage of risk in iPost in
       line with the priorities established under bullet 2.

       Regarding bullet 4, the Department notes that the continuous monitoring strategy is an
       enterprise level strategy. Thus, the continuous monitoring strategy does not need to be
       addressed in detail in every system security plan.

Recommendation 12: {Section H} We recommend that the Chief Information Officer, in
accordance with NIST SP 800-34, Revision 1, "Contingency Planning Guide for Federal
Information Systems" take the following actions:
    • Update the Continuity of Operations Communication Plan annually or when changes
       occur to the organization, network hardware, systems, and applications and, if necessary,
       after Continuity Testing.
    • Perform an entity-wide Business Impact Analysis and develop a strategy to prioritize
       recovery of the critical assets within the Department of State.
    • Update the section of the Foreign Affairs Manual that contains guidance and direction for
       development and implementation of Continuity of Operations Communication Plan.




   Department Response to Recommendation 12:

       The Department will:




                                              70
	
                                    UNCLASSIFIED

                                   UNCLASSIFIED





                                       UNCLASSIFIED
                                            10

           •   Develop a master table of contents for the OpenN et security documentation across
               sub-systems so that the OIG can find the COOP plans and updates in ON
               subsections.
           •   Develop criteria to determine when COOP plans have been adequately addressed
               in these documents.
           •   Verify that significant changes to COOP plans are in compliance with the
               applicable criteria.

Recommendation 13: {Section H} We recommend that the Bureau of Administration, Office
of Emergency Management, in coordination with the ChiefInformation Officer, align the
Business Impact Analysis of the Primary Mission Essential Functions with the Bureau of
Information Resource Management's Maximum Tolerable Downtime for the network in
accordance with NIST SP 800-34, Revision 1, "Contingency Planning Guide for Federal
Information Systems."

   Department Response to Recommendation 13:

       The Department considers the documents already aligned and will:
          • Develop criteria to determine when the BIA and State GSS downtime are
             adequately coordinated.
          • Verify that these criteria are met.

Recommendation 14: {Section I} As required by National Institute of Standards and
Technology (NIST) Special Publications (SP) 800-34, Revision 1, Contingency Planning Guide
for Federal Information Systems, and SP 800-53, Revision 3, Recommended Security Controls
for Federal Information Systems and Organizations, we recommend that the Bureau of
Information Resource Management, Office ofInformation Assurance, in coordination with the
bureaus and system owners, take the following actions:
    • Document and maintain alternate site locations and procedures for accessing an alternate
       site.
    • Develop and maintain contingency plans for all major applications and general support
       systems.
    • Maintain and update recovery and restoration procedures for all applications and general
       support systems.

   Department Response to Recommendation 14:

       The Department will document compliance and/or non-compliance to the OIG findings
       and take the necessary corrective action.

Recommendation 15: {Section I} As required by National Institute of Standards and
Technology (NIST) Special Publications (SP) 800-34, Revision I, Contingency Planning Guide
for Federal Information Systems and SP 800-53, Revision 3, Recommended Security Controls for
Federal Information Systems and Organizations, we recommend that the Chief Information
Officer:




                                              71
	
                                   UNCLASSIFIED

                                    UNCLASSIFIED





                                        UNCLASSIFIED
                                             11

    •   Revise the Infonnation Resource Management/Infonnation Assurance Contingency Plan
        Test Review checklist to address the following items:
             o Recovery and damage assessment procedures
             o Alternate recovery site details
             o Back-up procedures
             o Back-up test results for moderate- and high impact systems
    •   Revise the Contingency Plan Policy to include an organization-defined frequency for
        backup testing.
    •   Revise the Foreign Affairs Manual to require system owners to report to IRM/IA on the
        test results and updates to the contingency plans.

    Department Response to Recommendation 15:

        The Department will document compliance and/or non-compliance to the OIG findings
        and take the necessary corrective action.

Recommendation 16: {Section J} We recommend that the ChiefInfonnation Officer in
accordance with the Foreign Affairs Manual (5 FAM 1065.3) and the National Institute of
Standards and Technology Special Publication 800-47, "Security Guide for Interconnecting
Information Technology Systems," take the following actions:
    • Ensure that the contractor oversight program complies with Office of Management and
       Budget, Federal Infonnation Security Management Act, National Institute of Standards
       and Technology, and the Foreign Affairs Manual security policies, standards, and
       requirements for managing Contractor Owned Contractor Operated (COCO) systems;
       specifically, all security-related documentation for such systems should be retained.
    • Implement a COCO system security program whereby COCOs are overseen by the
       Bureau of Infonnation Resource Management/Infonnation Assurance.

    Department Response to Recommendation 16:

        Regarding bullet 1, the Department will document compliance and/or non-compliance to
        the OIG findings and take the necessary corrective action.

        Regarding bullet 2, the Department does not agree that these assignments require change
        and thus does not agree with the recommendation.

Recommendation 17: {Section J} We recommend that the Bureau of Diplomatic Security
develop and implement new and enhanced security requirements to coordinate security activities
for tracking all extensions (that is, contractor sites, other Government agencies, and third-party
vendors) to OpenNet and ClassNet as required by the Office of Management and Budget
Memorandum M-II-33, FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management.


    Department Response to Recommendation 17:




                                               72
	
                                    UNCLASSIFIED

                                    UNCLASSIFIED





                                       UNCLASSIFIED
                                            12

       The Department will verify that all Department of State computers at other Federal
       agencies are clearly documented. (We found no defects with regard to the process for
       contractor sites.)

Recommendation 18: {Section J} We recommend that the Bureau of Diplomatic Security, in
coordination with the Bureau of Administration, establish procedures to identify the total number
of contractors who have access to Department of State systems as required by the Office of
Management and Budget Memorandum M-11-33, FY 2011Reporting Instructionsfor the
Federal Information Security Management Act and Agency Privacy Management.

   Department Response to Recommendation 18:

       The Department does not agree with this recommendation because a) knowing the exact
       total number of contractors (a continuously changing number) does not have an impact
       upon the security of the Department, and b) it is not required by M-1l-33.

Recommendation 19: {Section K} We recommend that the Chief Information Officer, as
required by Office of Management and Budget (OM B) Memorandum M-11-33, FY 2011
Reporting Instructions for the Federal Information Security Management Act and Agency
Privacy Management and OMB Circular No. A-II, Preparation, Submission, and Execution of
the Budget:

   •   Ensure that the Bureau of Information Resource Management/ Business Management and
       Planning track all obligations and expenditures for information technology security
       investments.
   •   Provide a summary of non-maj or investments that make up the information technology­
       infrastructure and other major investments.
   •   Include the Unique Project Identifier in the Department of State's Plans of Action and
       Milestones database.

   Department Response to Recommendation 19:

       The Department agrees with the recommendation, but not the authorities cited and will:
           •   Track and include a summary report for all obligations and expenditures for all IT
               projects with a) a material level offunding, or b) significant security risk.
           •   Include UP Is in the Department's POA&M for each system.




                                              73
	
                                    UNCLASSIFIED

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
	
            and resources hurts everyone. 




         Call the Office of Inspector General
	
                      HOTLINE

                     202/647-3320 

                  or 1-800-409-9926

        to report illegal or wasteful activities.
	


               You may also write to
	
             Office of Inspector General
	
              U.S. Department of State
	
               Post Office Box 9778 

                Arlington, VA 22219
	

       Please visit our Web site at oig.state.gov
	

           Cables to the Inspector General
	
          should be slugged “OIG Channel”
	
              to ensure confidentiality.
	
UNCLASSIFIED





UNCLASSIFIED

